<html>
<title> - CONSERVATION AND FORESTRY: PERSPECTIVES ON THE PAST AND FUTURE DIRECTION FOR THE 2018 FARM BILL</title>
<body><pre>[Senate Hearing 115-592]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-592

                       CONSERVATION AND FORESTRY:
                      PERSPECTIVES ON THE PAST AND
                     FUTURE DIRECTION FOR THE 2018
                               FARM BILL

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                             JUNE 29, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
          

       Available via the World Wide Web: http://www.govinfo.gov/
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-638 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96f1e6f9d6f5e3e5e2fef3fae6b8f5f9fbb8">[email&#160;protected]</a>                    
 

           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Conservation and Forestry: Perspectives on the Past and Future 
  Direction for the 2018 Farm Bill...............................     1

                              ----------                              

                        Thursday, June 29, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2

                                Panel I

Tidwell, Tom, Chief, Forest Service, U.S. Department of 
  Agriculture, Washington, DC....................................     4
Bramblett, Jimmy, Deputy Chief, Programs, Natural Resources 
  Conservation Service, U.S. Department of Agriculture, 
  Washington, DC.................................................     5
Jones, Misty, Director, Conservation and Environmental Programs 
  Division, Farm Service Agency, U.S. Department of Agriculture, 
  Washington, DC.................................................     7

                                Panel II

Horning, Steven, Horning Farms, Watertown, SD....................    35
Dees, Paul D., Chairman, Delta Wildlife, Stoneville, MS..........    37
Downey, Barb, Downey Ranch, Wamego, KS...........................    38
Sharp, Adam, Executive Vice President, Ohio Farm Bureau 
  Federation, Columbus, OH.......................................    39
Saloom, Salem, M.D., Tree Farmer and Owner, Saloom Properties, 
  Brewton, AL....................................................    41
Roady, Chuck, Vice President and General Manager, F.H. Stoltze 
  Land & Lumber Company, Columbia Falls, MT......................    42
Topik, Christopher, Ph.D., Director of North America Forest 
  Restoration, North America Region, The Nature Conservancy, 
  Arlington, VA..................................................    43
                              
                              
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    60
    Bramblett, Jimmy.............................................    61
    Dees, Paul D.................................................    75
    Downey, Barb.................................................    81
    Horning, Steven..............................................    86
    Jones, Misty.................................................    91
    Roady, Chuck.................................................    95
    Saloom, Salem................................................   103
    Sharp, Adam..................................................   111
    Tidwell, Tom.................................................   116
    Topik, Christopher...........................................   118
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    .............................................................
    National Association of Wheat Growers, prepared statement for 
      the Record.................................................   134
Stabenow, Hon. Debbie:
    Midwest Crop Collaboratve, prepared statement for the Record.   139
    The Western Agriculture and Conservation Coalition, prepared 
      statement for the Record...................................   141
Ernst, Hon. Joni:
    Kelley Family Farms, prepared statement for the Record.......   144
Question and Answer:
Bramblett, Jimmy:
    Written response to questions from Hon. Pat Roberts..........   148
    Written response to questions from Hon. Debbie Stabenow......   150
    Written response to questions from Hon. Steve Daines.........   160
    Written response to questions from Hon. Patrick J. Leahy.....   161
    Written response to questions from Hon. Michael Bennet.......   166
    Written response to questions from Hon. Kirsten Gillibrand...   169
    Written response to questions from Hon. Robert Casey, Jr.....   173
    Written response to questions from Hon. Chris Van Hollen.....   177
Dees, Paul D.:
    Written response to questions from Hon. Pat Roberts..........   183
    Written response to questions from Hon. Debbie Stabenow......   186
    Written response to questions from Hon. Patrick J. Leahy.....   187
Downey, Barb:
    Written response to questions from Hon. Pat Roberts..........   189
    Written response to questions from Hon. Debbie Stabenow......   190
    Written response to questions from Hon. Patrick J. Leahy.....   190
Horning, Steven:
    Written response to questions from Hon. Pat Roberts.........193,195
    Written response to questions from Hon. Debbie Stabenow.....193,196
    Written response to questions from Hon. Patrick J. Leahy....193,196
Jones, Misty:
    Written response to questions from Hon. Pat Roberts..........   197
    Written response to questions from Hon. Debbie Stabenow......   199
    Written response to questions from Hon. Joni Ernst...........   204
    Written response to questions from Hon. Patrick J. Leahy.....   204
    Written response to questions from Hon. Amy Klobuchar........   208
    Written response to questions from Hon. Michael Bennet.......   208
    Written response to questions from Hon. Kirsten Gillibrand...   209
    Written response to questions from Hon. Robert Casey, Jr.....   210
    Written response to questions from Hon. Chris Van Hollen.....   211
Roady, Chuck:
    Written response to questions from Hon. Pat Roberts..........   213
    Written response to questions from Hon. Patrick J. Leahy.....   215
Saloom, Salem:
    Written response to questions from Hon. Pat Roberts..........   218
    Written response to questions from Hon. Debbie Stabenow......   219
    Written response to questions from Hon. Patrick J. Leahy.....   220
Sharp, Adam:
    Written response to questions from Hon. Pat Roberts..........   225
    Written response to questions from Hon. Debbie Stabenow......   226
    Written response to questions from Hon. Patrick J. Leahy.....   226
    Written response to questions from Hon. Sherrod Brown........   229
Tidwell, Tom:
    Written response to questions from Hon. Pat Roberts..........   231
    Written response to questions from Hon. Debbie Stabenow......   233
    Written response to questions from Hon. Steve Daines.........   234
    Written response to questions from Hon. Patrick J. Leahy.....   235
    Written response to questions from Hon. Amy Klobuchar........   237
    Written response to questions from Hon. Kirsten Gillibrand...   238
Topik, Christopher:
    Written response to questions from Hon. Patrick J. Leahy.....   241


 
                       CONSERVATION AND FORESTRY:
                      PERSPECTIVES ON THE PAST AND
                     FUTURE DIRECTION FOR THE 2018
                               FARM BILL

                              ----------                              


                        Thursday, June 29, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:03 a.m., in 
room 216, Hart Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Roberts, Cochran, Boozman, Hoeven, Ernst, 
Grassley, Thune, Daines, Perdue, Strange, Stabenow, Leahy, 
Brown, Klobuchar, Bennet, Gillibrand, Donnelly, Heitkamp, 
Casey, and Van Hollen.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order. Thank you for your rapt attention. The room was abuzz. 
People were happy and smiling, talking, and then I came in, and 
everybody just got quiet. I do not understand that.
    [Laughter.]
    Chairman Roberts. Today, our Committee turns its attention 
to two important titles in the Farm Bill--conservation and 
forestry.
    Across the country and throughout my State of Kansas, I 
have heard repeatedly from farmers and ranchers about the 
importance of these programs, how they successfully incentivize 
farmers to take conservation to the next level and the need for 
continued Federal investment in these critical programs.
    Farmers and ranchers, through voluntary conservation 
programs--not through regulatory action--are making a 
difference and contributing to environmental benefits to 
address resource concerns, like reducing nutrient runoff, 
improving soil health, reducing erosion, and improving water 
quality, all while meeting the demand of growing the safest and 
most abundant food supply in the world.
    Reflecting on the 2014 Farm Bill, that law made a number of 
changes to both the conservation and forestry titles.
    Within the conservation title, 23 separate programs were 
consolidated, and streamlined into 13, with the sole purpose of 
improving program efficiencies and program delivery. The 
conservation title also contributed to deficit reduction 
through voluntary cuts to conservation programs totaling $6 
billion over 10 years.
    The forestry title eliminated unused and unfunded 
authorities, and it provided some helpful tools for land 
managers on private, State, and Federal land part of the 
National Forest System.
    We have before us today two panels of witnesses who will be 
able to provide input and advice on the current status of 
programs, what is working well, and what challenges remain.
    We have invited the Department of Agriculture to hear 
firsthand from folks who administer and deliver the 
conservation and forestry programs our Committee authorizes in 
the Farm Bill.
    We also have a panel of stakeholders comprised almost 
entirely of producers and landowners who utilize and 
participate in these conservation and forestry programs.
    More importantly, I hope we hear input from our witnesses 
about the future direction of these programs and how 
improvements can be made.
    This hearing is timely, especially having just visited Big 
Sky Country with Senator Daines. I had the opportunity to visit 
and learn about several issues facing the forestry sector, 
landowners, regulatory challenges related to Federal land 
management and endangered species.
    Now, while Kansas may not be the most forested State, I 
understand the challenges facing the forestry sector, which are 
not vastly different from the challenges facing agriculture.
    As our Committee works to craft the next Farm Bill, we will 
find ourselves in a very tough budgetary environment. I know 
many within the conservation community will be looking to 
increase funding for programs that experienced cuts in the 2014 
Farm Bill.
    However, Congress will have difficult decisions to make as 
we try to figure out how to address the needs, but I simply 
would urge everyone, at the very least, to work to protect 
conservation and to consider working within the confines of the 
existing programs.
    I look forward to hearing our witnesses, and with that, I 
recognize our distinguished Ranking Member, Senator Stabenow, 
for any remarks that she might like to make.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and as on each of our hearings, it is a pleasure to work with 
you as we move forward to get the Farm Bill done. Thank you for 
holding this important hearing.
    As the world population continues to grow, American farmers 
and ranchers are growing more food with fewer resources, while 
also protecting our land and water.
    This is nothing new for those of us from Michigan, where 
protecting the Great Lakes is in our DNA.
    With 70 percent of U.S. land privately owned, our farmers 
and ranchers and foresters are the original conservationists 
and our first responders to sustain the health and diversity of 
our natural resources.
    However, they should not have to bear this responsibility 
alone. The Farm Bill provides important conservation and 
forestry tools, as the Chairman indicated, that help farmers 
and foresters keep our water clean, improve the resiliency of 
our landscapes, and protect habitat for wildlife.
    In addition to these important environmental benefits, 
conservation and forestry also creates economic opportunities. 
I have always said that the Farm Bill is a jobs bill, and 
conservation and forestry is no exception.
    In the 2014 Farm Bill, we made historic investments in 
voluntary conservation methods that maintain healthy soils to 
boost productivity and increase a farmer's bottom line.
    The Farm Bill also supports farmers who open up their 
farmland to be used as wildlife habitat for hunting and fishing 
and outdoor recreation, which we do a lot of in Michigan. These 
activities pour $100 billion into the U.S. economy and support 
over 700,000 jobs in small towns and rural communities.
    Matching public conservation dollars with private dollars 
was another success of the 2014 Farm Bill. The Regional 
Conservation Partnership Program is a new and innovative 
approach to voluntary conservation, which has leveraged more 
than $1.2 billion in private funding and brought together over 
2,000 diverse partners to address local conservation goals.
    The impact of these projects can be seen in all 50 States. 
Nearly half of the partnership projects awarded are addressing 
water quality, something that is very important to the economy 
and very important to our way of life in Michigan, where people 
come from near and far to visit our beautiful Great Lakes.
    Our forestlands are equally important to our economy. From 
loggers and bio-manufacturers to hunters and hikers, the health 
of our forests impacts everyone. Many rural communities depend 
on forests as the foundation of their economy.
    In the 2014 Farm Bill, we made great strides to give the 
Forest Service new tools to manage our national forests. The 
Good Neighbor Authority has been one of the biggest 
accomplishments of the bill, allowing State foresters to manage 
forestlands more efficiently by preparing Federal timber sales 
and partnering on restoration projects. In addition, the last 
Farm Bill allowed expedited treatment of forests ravaged by 
insects and disease.
    To date, 38 governors have worked with USDA and the Forest 
Service--and we are very pleased that Chief Tidwell is here 
today--working with them to designate over 55 million acres for 
expedited restoration.
    As we look to the 2018 Farm Bill, we must continue to 
support smart forestry and smart conservation practices that 
are helping the environment and our economy.
    I am sure we will hear about the broken Forest Service 
budget, an issue that most people from both sides of the aisle 
agree we ought to fix. It is also important to continue to 
coordinate restoration efforts across ownership boundaries, 
because forest health challenges do not end at the federal 
property lines.
    Additionally, voluntary conservation must continue to be a 
priority in this Farm Bill. As we support farmers' efforts to 
address emerging challenges across the country, from algae 
blooms in Lake Erie to drought in the Dakotas, conservation 
tools are more important than ever.
    The 2014 Farm Bill also included a linchpin agreement to 
protect highly erodible soils and wetlands. According to USDA, 
more than 99 percent of farmers are meeting these requirements, 
which benefits taxpayers, our environment, and our farmers. 
Maintaining this agreement will be critical.
    Mr. Chairman, I welcome the opportunity to discuss the 
important ways the conservation and forestry titles protect our 
land and water and contribute to our economy and way of life, 
and I appreciate you holding this hearing.
    Chairman Roberts. Thank you, Senator.
    We issue a strong welcome to our first panel of witnesses 
before the Committee this morning.
    As you have already pointed out, first, we have Mr. Tom 
Tidwell, who currently serves as Chief of the U.S. Forest 
Service of the Department of Agriculture, a position he has 
held since 2009, and throughout his 40-year career of public 
service, Mr. Tidwell has served in a variety of positions at 
all levels of the Forest Service, including as District Ranger, 
Forest Supervisor, and Legislative Affairs Specialist in the 
Washington, DC, office.
    Welcome, Chief, and I look forward to your testimony.
    Second, we have Mr. Jimmy Bramblett, who serves as the 
Deputy Chief of Programs with the Natural Resources 
Conservation Service. In this role, Mr. Bramblett is 
responsible for managing and delivering the agency's financial 
assistance programs, easement programs, and conservation 
technical assistance.
    Welcome, and thank you, sir, for participating in today's 
hearing.
    Next, we have Ms. Misty Jones. Ms. Jones joins us from the 
USDA's Farm Service Agency, where she currently serves as 
Director of the Conservation and Environmental Programs 
Division. In this role, she oversees the FSA's voluntary 
conservation programs, including the Conservation Reserve 
Program.
    Welcome, and thank you for joining today's panel.
    We will move ahead with the testimony with you, sir, Mr. 
Tidwell, Chief.

     STATEMENT OF TOM TIDWELL, CHIEF, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Mr. Chairman, members of the Committee, thank 
you again for this opportunity to address the Committee 
regarding our implementation of Farm Bill provisions.
    Over the past five decades, the Forest Service has received 
authorization for numerous valuable programs through past Farm 
Bills. I especially want to talk about the 2014 Farm Bill. The 
forestry title in that bill has definitely helped us to improve 
the health of the nation's forests, reduce the wildfire threat 
to communities, and sustain rural America.
    The insect and disease provisions, as has already been 
mentioned, through the recommendations of the governor, I 
designated over 55 million acres that allow us to expedite 
projects to be able to address the increased risk of insect and 
disease infestations. So far, 94 projects spanning over 43 
National Forests and 19 States have moved forward with these 
provisions.
    The Good Neighbor Authority has increased our capacity to 
do more work through agreements with our State partners and 
Puerto Rico. It allows us to be able to access the States' 
expertise to perform watershed restoration work, forest 
management services on Federal lands. To date, we have 
completed 95 agreements with 29 States to accomplish a variety 
of restoration work. This authority not only increases our 
capacity, but allows us to be able to learn from our State 
partners, to be able to use their processes, their procedures, 
for us to be more efficient, for us to be able to manage our 
National Forests.
    Also, the permanent authority for stewardship contracting 
has helped us to be able to get more work done, to improve 
watershed health, and it has also reduced controversy and 
litigation. It is probably our best tool to provide certainty 
to communities and industry.
    In fiscal year 6, we had 225 stewardship contracts and 
agreements. We treated over 96,000 acres of hazardous fuels, 
22,000 acres that we improved wildlife habitat on, and we 
produced 718 million board feet.
    Also, through our previous Farm Bills, the Forest Service 
has received authorities such as forest stewardship, which 
allows us to work with our State foresters to be able to help 
private landowners keep their forested land forested.
    For the Forest Service to build on your good work, I have 
to ask you that the public needs your support for us to be able 
to find a fix to the budget issue we have when it comes to 
funding for wildfires.
    Just one point I want to make, and that is since 1998, our 
fire programs made up 16 percent of the Forest Service's 
budget. Today, it is 53 percent. This is just no longer 
sustainable if we are going to be able to carry out the work 
that we need to do to restore the resiliency, the health of our 
forest and grasslands.
    So I appreciate your efforts today to move forward with 
this work. We are committed to working with you on the Farm 
Bill, and I can tell you that the Forest Service--we welcome 
legislation that can expand the tools that we can use to 
restore the nation's forests, to reduce the wildfire threat to 
communities, while we sustain rural America, while earning and 
maintaining the public's trust.
    Again, thank you for this opportunity, and I look forward 
to your questions.
    [The prepared statement of Mr. Tidwell can be found on page 
116 in the appendix.]
    Chairman Roberts. Thank you, Chief. An excellent statement, 
more especially with regards to the forest fire situation and 
the need for better forest management, and thank you for the 
work that you.
    Mr. Bramblett, please proceed.

STATEMENT OF JIMMY BRAMBLETT, DEPUTY CHIEF, PROGRAMS, NATIONAL 
 RESOURCES CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Bramblett. All right. Good morning. Chairman Roberts, 
Ranking Member Stabenow, distinguished Committee members, thank 
you all for the opportunity to be here and testify on behalf of 
the men and women and our clients, your constituents, to deal 
with the Natural Resources Conservation Service. We appreciate 
the ongoing support and leadership of this Committee for 
voluntary, incentive-based conservation on private lands.
    As Senator Stabenow mentioned in her statement, 70 percent 
of land ownership in this country is privately held, and those 
individuals make decisions every day that affect not only their 
property, but the property of their neighbors, their watershed, 
and in fact, the entire U.S. population.
    Voluntary, incentive-based conservation results in improved 
water quality, increased agricultural productivity, and 
improved wildlife habitat. Through the Environmental Quality 
Incentives Program and the past couple of Farm Bills, we have 
invested $7.2 billion to cover 94 million acres--that is the 
size of the State of Montana--to address natural resource 
issues, with over 267,000 farmers. Through this locally led 
process, we can also address national, regional, and State 
priorities as well.
    We complement EQIP with the Conservation Stewardship 
Program (CSP), which we have recently revamped. It is now the 
nation's largest conservation program with over 80 million 
acres, but the changes we recently made also better complement 
EQIP, offer increased productivity and flexibility to 
producers, and increase the scientific defensibility of the 
program. These changes have been well received, as we have seen 
an increase of 30 percent in the applications that have come to 
us this fiscal year.
    Through our easement programs, we continue to experience 
high demand. This past fiscal year, we only were able to fund 
about 15 percent of the request to put lands in either working 
land easements or in wetland easements, and today, NRCS has 
17,000 easements in our portfolio, covering 3.5 million acres 
and 50,000 miles of boundary.
    The RCPP program basically is another example of locally 
led, partner-driven conservation. By the end of this Farm Bill, 
we will have invested over $800 million, with over 2,000 
partners in this program, and that has attracted over $1.2 
billion of non-Federal investments in the conservation space.
    These partners are taking advantage of NRCS's unique 
delivery system of 2,400 field offices across the country, our 
technical science-based approach to conservation planning, and 
that science approach that we use has proven successes, whether 
it has been in the Mississippi River Basin, the Chesapeake Bay, 
or the Western Lake Erie Basin, and whether or not it has been 
associated with water quality or with wildlife. We have been 
able to work with landowners to help get species from the brink 
of being listed on the Threatened and Endangered Species List 
for the Fish and Wildlife Service, which has saved thousands of 
landowners undue regulatory pressures and burden and helped 
them continue with the profitability of their operations.
    None of this would be possible, though, without the 
Conservation Technical Assistance Program. That Conservation 
Technical Assistance Program enables us to reach out, bring in 
the latest science and technology into our conservation 
planning process, and as a result, we are able also to work 
with our other sister agencies, whether it be the Forest 
Service or the Farm Service Agency, and provide critical 
conservation planning support to help address resource issues 
and needs in the CRP program and in other State and private 
forestry needs across the country.
    So, Mr. Chairman, Ranking Member, and members of the 
Committee, again, thank you all for the opportunity to be here, 
for the authorities that you have offered to NRCS to help bring 
a wide range of technical, scientific, and financial resources 
to America's producers.
    We are happy to answer any questions you may have and look 
forward to the discussion.
    [The prepared statement of Mr. Bramblett can be found on 
page 61 in the appendix.]
    Chairman Roberts. Thank you, Mr. Bramblett.
    I think we have a record, I would say to my distinguished 
Ranking Member.
    Senator Stabenow. Yes.
    Chairman Roberts. Both witnesses have finished at their 
time. That is rather remarkable.
    [Laughter.]
    Chairman Roberts. I did not mean to put the pressure on 
you, Ms. Jones.
    Senator Stabenow. The pressure is on. Yeah.
    Chairman Roberts. Ms. Jones, please.

     STATEMENT OF MISTY JONES, DIRECTOR, CONSERVATION AND 
  ENVIRONMENTAL PROGRAMS DIVISION, FARM SERVICE AGENCY, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Jones. Mr. Chairman, Ranking Member, and members of the 
Committee, I appreciate this opportunity to offer testimony 
this morning on USDA's Farm Service Agency's conservation 
programs.
    The Conservation Reserve Program first appeared in the 1985 
Farm Bill and is one of USDA's largest conservation programs. 
CRP improves water quality, reduces soil erosion, and restores 
wildlife habitat. In doing so, CRP spurs hunting, fishing, 
recreation, tourism, and other economic activities across rural 
America.
    Currently, 23.5 million acres are enrolled in CRP, 
including 16 million acres under general sign-up enrollment, 
7.3 million acres under continuous sign-up enrollment, and 
90,000 acres under grasslands sign-up enrollment, with another 
800,000 acres coming online in fiscal year 2018. This is 13.4 
million acres below the peak enrollment in 2007 and just short 
of the 24-million-acre cap established in the 2014 Farm Bill. 
CRP contracts on 2.5 million acres--combined, general, and 
continuous--are set to expire on September 30th, 2017.
    FSA is constantly on the lookout for ways to help new and 
beginning farmers gain entry into farming. The Transition 
Incentives Program provides 2 additional years of payments for 
retired producers who transition expiring CRP acres to socially 
disadvantaged, veterans, or beginning producers.
    Under the 2014 Farm Bill, almost 1,000 eligible new 
producers have been helped. FSA has also heard from beginning 
farmers that it can be difficult to compete for farmland in 
certain areas, given the high level of CRP rental rates. Since 
the initiation of CRP in 1985, CRP rental rates have been set 
to align as closely as possible with cash market rents. Rates 
are updated periodically, and we are planning for new rates to 
be effective on October 1, 2017.
    CRP has many flexible elements to allow adjustment to 
critical conditions, such as emergency haying and grazing, and 
we look forward to continuing our flexible approach.
    In April, USDA authorized emergency grazing on CRP lands in 
Kansas, Oklahoma, and Texas, the three States, which were most 
heavily affected by wildfires that started in March. Just last 
week, Secretary Perdue authorized emergency grazing on CRP land 
in the drought-stricken counties in Montana, North Dakota, and 
South Dakota.
    The Emergency Conservation Program also provides critical 
emergency funding and technical assistance, in this case, to 
help farmers and ranchers rehabilitate farmland damaged by 
natural disasters and to help livestock producers enhance water 
supplies during periods of severe drought.
    With the 2017 flooding in Missouri, Arkansas, and other 
States, we stand ready to provide ECP funding within our 
available resources to farmers and ranchers in those States to 
restore livestock fences and conservation structures, remove 
flood debris, and rehabilitation farmland.
    Again, I want to thank you for allowing me to provide FSA's 
perspective on the valuable conservation programs your 
Committee authorizes. I am happy to answer any questions that 
you may have.
    [The prepared statement of Ms. Jones can be found on page 
91 in the appendix.]
    Chairman Roberts. Thank you, Ms. Jones.
    I want to let the Committee know that we are awaiting one 
other member to come before we get into the business for a very 
short business meeting with regard to the nomination of J. 
Christopher Giancarlo. As soon as that takes place, we will 
take a brief detour, and we will be right back to you.
    But seeing that is not the case yet, I am going to start 
the questioning of Mr. Bramblett. Can you talk a little about 
the participation level of livestock and dairy operations in 
the Conservation Stewardship Program? Have there been any 
barriers or disincentives that prevent livestock operations 
from entering this program?
    Mr. Bramblett. Thank you, Chairman.
    The answer that we would give in short is no. The 
Conservation Stewardship Program offers a lot of opportunities 
to livestock producers, whether it is managing their water 
sources, managing the grazing sources, even helping them with 
calving cycles, stockpiling cool-season grasses, dealing with 
nutrient management, integrated pest management, and weed 
management. So the opportunities for livestock producers, 
whether they are cattle producers or dairy producers, have full 
access to the Conservation Stewardship Program.
    Some may have a misperception that when you are dealing 
with a dairy operation and heavy engineering infrastructure 
like a waste storage structure or a waste transfer system, you 
get into some very expensive conservation practices to the tune 
of hundreds of thousands of dollars.
    The Conservation Stewardship Program, with its limitation 
of $18 per acre, actually manifests itself as a good complement 
to EQIP in that regard as well, allowing those producers as 
well as other cash grain operators to do many more land 
management activities.
    Chairman Roberts. Mr. Bramblett, earlier this month, the 
Department's Office of Inspector General released a report on 
NRCS's handling of funding provisions in the new Regional 
Conservation Partnership Program. The report suggests that the 
agency may have been in violation of the 2014 Farm Bill and the 
Antideficiency Act.
    While RCPP is a new model--I understand that--for 
conservation programs, the original intent behind the program 
is to provide flexibility for the NRCS to leverage Federal 
conservation dollars while also encouraging new partnerships to 
deliver conservation on a watershed scale.
    Some concerns in that report that were raised include 
making available multiple-year funding in a single year and 
complications associated with the obligations and commitments 
of funds. Now, while it appears the agency agrees with most of 
the findings and is taking corrective action--we thank you for 
that--what additional legislative safeguards should we consider 
incorporating into the RCPP to provide clarity to the NRCS with 
regard to the future administration and delivery of program 
funds?
    Mr. Bramblett. Well, Senator Roberts, the agency basically 
identified and recognized the intent of this Committee with 
respect to the flexibility of the RCPP program. The Office of 
Inspector General, in their evaluation of the program, 
basically identified the term ``commitment'' by the April 1st 
deadline to return donated program funds, whether it be EQIP, 
CSP, or easement funds, back to their respective program if 
those funds were not committed by April 1st.
    Given the timing of the Farm Bill and the need to implement 
that in working with OGC, we felt like we could combine the 
fiscal year--FY14 and fiscal year funds and have a $398 million 
offer out there.
    As a result, we had over 600 applications requesting $2.8 
billion. From that perspective, the threshold of commitment, we 
feel like was made and therefore not a need to return those 
funds to their donor programs.
    We are currently in consultation with OGC to make sure that 
our interpretation was correct and hope to have a definitive 
answer by end of next month or the beginning of August.
    Chairman Roberts. I thank you for that.
    It appears I think we have--all right. My marching orders 
are to finish the questions.
    Ms. Jones, for the Conservation Reserve Program, I have 
been hearing several ideas from various groups about the future 
direction of CRP. It is a pretty hot item right now in farm 
country. One area of interest for CRP is rental rates. Can you 
discuss the current policy on how the FSA develops rental 
rates?
    Ms. Jones. Thank you for the question, Mr. Chairman.
    Currently, we base our rental rates on NASS Cash Rental 
Rate Survey, which is conducted at least every other year under 
the 2014 Farm Bill. Rates were most recently updated in 2015. 
The survey was conducted annually from 2008 to 2014, as 
required by the 2008 Farm Bill.
    The 2014 Farm Bill, however, provided the option of 
conducting the survey every other year. NASS conducted the 
survey in 2014 and '16, and FSA is currently using 2016 survey 
data to examine soil rental rates and plans to adjust them to 
be effective for October 1, 2017.
    Once a contract is approved, the rental rate is held 
constant for the length of the contract. FSA State offices will 
be allowed to provide justifications for alternative rates to 
the NASS survey results. Our rates are set to follow the market 
rather than set the market. We are currently reviewing rates 
within our county office system, and we will work through a 
rigorous process in order to establish them as closely as 
possible to the cash rent rates that are in the local areas.
    Chairman Roberts. I appreciate that.
    Now seeing a quorum is now present, I will recess this 
hearing for a brief few moments.
    [Whereupon, at 9:33 a.m., the Committee proceeded to other 
business and reconvened at 9:43 a.m.]
    Chairman Roberts. I now reconvene the Committee's hearing 
reviewing the USDA's conservation and forestry programs, and I 
thank the witnesses for their indulgence.
    Let us return to where we left off with Panel I, and I 
think Senator Stabenow is next.
    Senator Stabenow. Well, thank you, Mr. Chairman, and I 
would echo your words that it is a pleasure to serve with you 
on this Committee and that we are actually getting things done 
and working together which is so very important for the people 
we represent.
    In first asking a question about the Regional Conservation 
Partnership Program, Mr. Chairman, just for the record, I have 
two letters--one from Midwest Row Crop Collaborative, who are 
working to improve water quality in the Mississippi River 
Basin, and one from the Western Agriculture and Conservation 
Coalition, which is focused on western water issues. They have 
asked that I submit this for the record.
    Both letters reject the President's budget proposal to 
eliminate the Regional Conservation Partnership Program and 
highlight the importance of this program, so I would ask that 
they be submitted for the record.
    Chairman Roberts. Without objection.
    Senator Stabenow. Thank you very much.
    [The letters can be found on page 139 and 141 in the 
appendix.]
    Senator Stabenow. Again, welcome to all three of you. We 
appreciate your work. This is a very, very important part of 
the Farm Bill and frankly part of our policies for the country.
    Let me first ask Deputy Chief Bramblett and Director Jones 
about the RCPP. It is one of several working lands programs, as 
we know, and I wonder if you could talk more about the current 
demand for working lands programs at USDA. Are any of the 
programs oversubscribed, and what are the top resource issues 
addressed by these programs?
    Mr. Bramblett?
    Mr. Bramblett. Thank you, Senator Stabenow.
    The answer to your question is yes. These programs are 
greatly oversubscribed.
    Just for example, with the Conservation Stewardship 
Program, I mentioned earlier in my opening statement that we 
saw a 30 percent increase in applications this year. What that 
means is we will have almost 19,000 applications for the 
Conservation Stewardship Program, and we anticipate we are only 
going to be able to fulfill but about 6,500 of those.
    For the Environmental Quality Incentives Program in your 
home State, there were 1,745 applications last year, which we 
were only able to fill 946 of them, so a 2-to-1 backlog there.
    We are not done with this year, the Environmental Quality 
Incentives Program applications coming in, but the range of 
backlog is from 2 to 1 in your State, as much as 6 to 1, 5 to 1 
in other States, because of local issues, pressures, commodity 
prices and the like.
    With the Regional Conservation Partnership Program, we had 
$200 million this year to offer out. The demand and the 
proposals that came in that we are evaluating right now are in 
the range of $640 million, so another 3-to-1 backlog associated 
with that.
    The easement programs, as I mentioned earlier, also we are 
only able to fund those at about 15 percent of the request, so 
somewhere in the neighborhood of a 6.5-to-1 backlog associated 
with those.
    Senator Stabenow. Those are huge numbers, the differences 
in that.
    Mr. Bramblett. Those are huge numbers, exactly.
    Senator Stabenow. Yeah.
    Mr. Bramblett. It speaks to the value that everybody sees 
not only in conservation, but the farm profitability associated 
with conservation that we alluded to earlier as well.
    It is a win-win situation for everybody across the board, 
because not only does it help them sustain their operations and 
make them more profitable for today, but for future 
generations, and also helps their neighbors, their watersheds, 
and helps feed the world, as we talked about a little bit 
earlier.
    Senator Stabenow. If I could just underscore that. When we 
talk about risk management in the last Farm Bill, we 
strengthened risk management tools, crop insurance being one, 
but conservation is also a risk management tool for farmers and 
ranchers today. Isn't that right?
    Mr. Bramblett. That is exactly right. While we are not a 
farm management agency, we do like to think of the fact that 
these conservation programs offer a financial blueprint for 
farm management plans, and so as we talked about the increase 
in productivity and profitability, one quick example that I 
will give you is soil health. Every 1 percent increase in 
organic matter and soil health holds 27,500 gallons of water. 
That is a reduction in cost of irrigation. That is a resiliency 
in drought. That is an increase in productivity. Every 1 
percent increase in organic matter leads to about a 12 percent 
increase in productivity across the board, so yes.
    Senator Stabenow. Very important.
    Ms. Jones, would you respond to those questions as well?
    Ms. Jones. Yes. Thank you for the question.
    Under CRP's grasslands program, landowners and operators 
can protect grasslands, including rangeland and pastureland and 
certain other lands while maintaining the areas as grazing 
lands. This program emphasizes support for grazing operations, 
plant and animal biodiversity, and grassland and lands 
containing shrubs and forbs under the greatest threat of 
conversion. Participation receives annual payments and cost-
share assistance, and our contracts are between 14 and 15 
years.
    There are currently about 900,000 acres enrolled in CRP 
grasslands, with a statutory cap of 2 million acres. Through 
three ranking periods, there are additional producers who would 
like to enroll their land in the program, but the 2-million-
acre cap is currently sufficient to meet demand, and we are 
awaiting the next ranking period, which has not been announced 
yet, because the producers compete for the land based on their 
environmental scores.
    Senator Stabenow. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thank you to the 
witnesses for being here today. We truly appreciate it.
    I would like to start by sharing a story from one of my 
constituents. It is a story from Mike Kelley, who is a fifth-
generation farmer from Monona County, Iowa, and he wrote me in 
January to tell me about how some of the very productive farm 
ground that he cash rents was outbid by conservation programs. 
In one instance, he was outbid by over $100 per acre by the 
government.
    The same thing happened to one of his sons in 2016 who lost 
88 acres of land to a pollinator program, where he had recently 
installed a center pivot irrigation system. To quote from his 
letter, ``Never in my 30-plus years of farming did I feel the 
government was going to be a threat to me and my young son's 
farm operation.''
    Mr. Chair, I would like to submit his letter for the 
record.
    Chairman Roberts. Without objection.
    [The letter can be found on page 144 in the appendix.]
    Senator Ernst. I have heard similar stories from across 
Iowa about CRP outbidding cash rents on productive farm ground, 
and it greatly concerns me and many others in the State of 
Iowa.
    We have a lot of producers who are participating in 
important voluntary conservation efforts targeted at marginal 
lands to protect soil health and water quality, but it appears 
the current structure of some of these programs has misaligned 
incentives.
    For Ms. Jones and Mr. Bramblett, please, in your opinion, 
is idling whole farms through CRP the best use of taxpayer 
dollars in a tight budget climate, or would we be better served 
focusing those dollars on marginal lands that could have the 
biggest bang for our taxpayers' bucks through the working lands 
programs?
    Ms. Jones, if you would start please.
    Ms. Jones. Thank you for the question.
    We offer a range of opportunities to our producers. Through 
our general sign-up, we allow it to be a competitive process 
where they come in, and they are scored on their environmental 
benefits.
    We generally see larger tracts of land, more whole fields 
in that regard, but we also have our continuous practices, 
which are smaller. They are highly incentivized in order to 
make the opportunity there for the farmer to invest and put 
those conservation practices in place.
    We support both sides of conservation in order to make it 
work for the farmers.
    Senator Ernst. Thank you for your answer.
    Mr. Bramblett?
    Mr. Bramblett. Thank you, Senator Ernst.
    From the NRCS perspective, we really aggressively pursue 
all kinds of conservation activities we can do on working 
lands, so EQIP, CSP basically do working lands. We even have an 
easement component called Agricultural Land Easement Program, 
which allows those operations to stay in a working land status.
    With respect to the CRP, we basically work within the 
authorities that are offered by the Committee and stand ready 
to help with our CTA program, offer conservation planning 
process support to the Farm Service Agency, however those 
authorities are delivered.
    Senator Ernst. Well, I appreciate that.
    The concern with the CRP program is that we are seeing more 
and more acres of highly productive land that is farmable and 
not a threat to really any erosion.
    The original intent of the CRP program was to protect those 
marginal lands, and we see more and more producers, especially 
those that are maybe older, wanting to retire, taking those 
acres out of production. That is a threat to some of our 
younger farmers or those that are wanting to engage in farming 
activities. I do think there are ways to fix the program, and 
we need to focus on those marginal lands rather than highly 
productive acres.
    Ms. Jones, the average age of a farmer in the U.S. today is 
58. That is an average farmer today. I have heard from many 
young and beginning farmers who are trying to access farmland 
but are being outcompeted by CRP. Are you hearing this from 
other young producers, and if so, where?
    Ms. Jones. Thank you for the question.
    We have several opportunities. One is our Transition 
Incentives payment program, where we allow our retiring 
landowners that have CRP contracts to transition to a new 
beginning farmer and rancher and in return for 2 years of 
annual rental payments. That allows the new and beginning 
farmer to have access to that land for production or other 
sustainable agricultural uses.
    Senator Ernst. So are you hearing from other States, or is 
Iowa the only State that is seeing this issue with CRP?
    Ms. Jones. I think that we often hear about new and 
beginning farmers and the opportunities that they want.
    Specifics, we have a coordinator at Farm Service Agency 
that specifically works with new and beginning farmers and 
ranchers throughout all of our programs, and I would be happy 
to look into that and get more information to you.
    Senator Ernst. I would appreciate that very much. I do 
think we have an issue out there.
    Thank you very much to our witnesses.
    Thank you, Mr. Chair.
    Chairman Roberts. Senator Heitkamp.
    Senator Heitkamp. Thank you so much, Mr. Chairman. As much 
as I would like to get into a lot of the details of 
conservation, I have a couple North Dakota-specific points to 
make.
    Mr. Tidwell, as you know, North Dakota and the Forest 
Service and the Justice Department have been in a protracted 
ongoing dispute regarding section lines in the grasslands in 
North Dakota.
    As Attorney General, I wrote the opinion on that, basically 
said those section lines exist because these were reacquired 
lands.
    After I wrote that opinion, the United States Government 
asked the State government to engage in a discussion about how 
we were going to resolve the dispute. I since left State 
government, but I will tell you I was shocked to find out that 
one of the arguments--in fact, now the winning argument that 
the government pursued is that because the State was willing to 
actually engage in discussions and negotiations, that 
forbearance was used against the State of North Dakota to 
basically stop North Dakota from pursuing its claim.
    If that is the position of the Department of Justice, that 
when we actually engage in a friendly discussion, we lose our 
rights, I would suggest to every State government, they sue you 
immediately. That is not a good use of resources.
    So Senator Hoeven and I are sending you a letter, sending 
USDA and Justice Department a letter, asking you to reconsider, 
to take a look at where we are in this litigation, but I wanted 
you to understand how greatly disappointed I am with the line 
of argument from the Department of Justice regarding the 
State's position on not pursuing this earlier in litigation. It 
was not pursued earlier in litigation because of the request of 
the United States Government, and so I just had to get that off 
my chest.
    So, with that said, I hope you can look favorably on our 
request, and I am sure Senator Hoeven will follow up on some of 
this.
    My question goes to Ms. Jones. As you know, North Dakota 
and many of our regional States--Montana, North Dakota, South 
Dakota--are experiencing severe drought with almost 47 percent 
of the State categorized in extreme drought and severe. 25 
percent is extreme.
    We have been begging you guys for a decision to allow 
haying, because people have to make decisions right now about 
what they are going to do with their herd. We believe that 
those decisions can be made without hurting any fundamentals of 
the CRP program. Can you give me some assurance that you are 
going to make this decision before the August 1st deadline? Can 
we get you guys to move quicker on a decision on haying?
    Ms. Jones. Thank you, Senator.
    Yes. The Department of Agriculture will soon make an 
announcement.
    Senator Heitkamp. But on haying, even if haying is not 
otherwise allowed?
    Ms. Jones. So what we are looking at right now are all the 
weathers, making sure that everything is tracking.
    The Secretary received a request from the States, letters, 
and as you said, we have already authorized emergency grazing 
on CRP during the primary nesting season in North Dakota, South 
Dakota, Montana, for being in the D2 or higher drought 
categories.
    Knowing what is ahead, the Secretary has heeded 
congressional recommendations and is authorizing emergency 
grazing of all CRP for all counties in which any part of their 
border lies within 150 miles of any portion of a county 
approved for emergency grazing of CRP.
    We have also decided to use our discretion, as we have done 
in the past, and allow CRP contract holders within 150 miles of 
a D2 or D3 county who has mid-contract management by haying 
their acreage to donate their hay to livestock producers in 
need of forage.
    CRP contract holders who mid-contract management by haying 
will still--the producers will still have the ability to 
destroy hay if they wish, or they can sell the hay with a 25 
percent deduction, as they have been fully authorized to do in 
the past.
    The Secretary is committed to continuing to monitor 
conditions and will consider expanding emergency authority if 
conditions worsen, such as authorizing emergency grazing in 
drought counties to all CRP practices, including for all grass 
covers, and authorizing emergency haying in drought countries 
during the primary nesting season.
    Senator Heitkamp. I do not know how things can get worse 
for our ranchers out there. If they are making it, they are 
making it day to day right now, and they do not know how they 
are going to carry this over into the winter.
    I would urge you to do everything. Go to the limit in what 
you can do in providing relief to these ranchers and access to 
CRP.
    Thanks so much.
    Chairman Roberts. The Senator From Alabama, Senator 
Strange.
    Senator Strange. Thank you, Mr. Chairman.
    I guess this question should be directed to Mr. Bramblett 
and Chief Tidwell. It has to do with the longleaf pine. That is 
a very important subject in Alabama. One of our witnesses later 
on the next panel will discuss that.
    I would like for you to talk, if you will, about the 
coordination on this--your coordination on this program, how 
you are assisting the landowners in Alabama in the longleaf 
restoration area.
    Mr. Bramblett. All right. Thank you, Senator Strange.
    We are actually excited to be working with landowners in 
the Southeast on the longleaf pine. It actually is a perfect 
blend of some of the things we have talked about a little bit 
earlier in the regard that it helps those landowners in the 
profitability of the land they manage, but also, it helps them 
address issues related to gopher tortoise, the red-cockaded 
woodpecker, bobwhite quail. So the mitigation against some of 
those particularly at-risk species is critical so those 
landowners do not deal with regulatory pressures, number one.
    But the bobwhite quail aspect of longleaf pine has actually 
been extremely intriguing as well because it has introduced a 
new economy in the Southeast, particularly southeast Alabama, 
southwest Georgia, of over a billion dollars of individuals 
coming from all over the world to be in that part the country 
to do hunting activities.
    So we are extremely excited about the interest that we have 
received. We have put in $65 million with landowners across 
that project area so far, and because of the continued increase 
in demand, this past year alone, we have put $5.6 million into 
that. We can never satisfy the request.
    So, again, our Conservation Technical Assistance Program, 
not everybody actually takes advantage of the financial 
assistance. They take advantage of that technical science-based 
planning process that we have, and many of them are still doing 
those activities, even without the financial resources.
    Senator Strange. That is great.
    Mr. Tidwell. Senator, what I would just like to add is the 
work that we are doing with the private landowners on longleaf, 
I think is the perfect example of the benefits of forestry by 
working together to, first of all, develop the research and the 
techniques to be able to reforest and replant longleaf in a way 
that it is highly successful, but it provides all the benefits. 
Not only does it provide excellent wood, but it provides all 
the key habitats, and it is just an excellent species to deal 
with, not only deal with fire, but also with wind, which we get 
a lot in your country, depending on how the storms come in. It 
just shows the benefits of forests.
    We are also working very closely to be able to find 
additional markets for the wood and also for the pine straw. So 
that as private landowners make this more long-term investment 
into a longer rotation species, there are opportunities to 
generate additional economic return during that time versus 
what they would get off some of the more short-duration 
rotation species that many of these folks have had to turn to 
in the past.
    Senator Strange. Well, I appreciate that response. I think 
it is a success story, as we will hear from our panelists on 
the second panel, and I thank you for your efforts there.
    One quick question--and maybe this is directed to you, Mr. 
Bramblett, or maybe Ms. Jones--our State and I know my 
neighboring States in the Southeast have been hit very hard by 
the wild pig population, and I know you are trying to address 
this. I wonder if you could comment briefly on what you are 
trying to do to assist our farmers and forestry folks who are 
devastated post-damage, because these are a very destructive 
species.
    Mr. Bramblett. Yeah. That is an extremely challenging issue 
in the Southeast and all across the South, in fact.
    One of the things that we are doing is working with the 
Animal and Plant Health Inspection Service, APHIS, because 
certain authorities that they have go beyond the authorities 
that we have within NRCS. So we are working with landowners to 
try to help identify what routes, what kind of wildlife habitat 
these critters use, for lack of a better phrase, and when we 
are able to get there and work in conjunction with APHIS and do 
trapping activities and get them removed from those properties, 
then we can go back in and work with those landowners and 
restore that property for however it needs to be, whether it is 
cropland, pastureland, or woodland. So that is kind of the 
support we are offering for landowners at this current time.
    Senator Strange. Well, that is great. We are hopeful that 
we can eradicate the problem, but there is an awful lot of 
damage that is done in a short period of time. So your 
assistance in that regard is great.
    Well, thank you, Mr. Chairman. I will yield back the rest 
of my time.
    Chairman Roberts. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    Chief Tidwell, I hope you are well. It is good to see you. 
Thank you for your service, and thanks to the rest of the panel 
for being here.
    In Colorado, Forest Service lands surrounding communities 
like Dillon in Summit County, which I know you are familiar 
with--Forest Service lands surround communities like Dillon; 
however, the geography and land values limit opportunities to 
develop affordable housing and other community-based 
facilities.
    The Colorado Department of Transportation recently offered 
to work with the Forest Service near Dillon to construct 
affordable housing for seasonal employees on the Service's 
land. This could save money, increase affordable housing stock, 
while creating new business opportunities. We are working on a 
measure that would provide the Forest Service flexibility to 
undertake projects like that.
    I wanted to ask you, Chief Tidwell, if you are familiar 
with this work and these issues and you are willing to work 
with us to ensure that the Forest Service can partner with 
communities to solve critical housing and facility needs in 
communities like Dillon but other communities all across the 
Rocky Mountain West.
    Mr. Tidwell. Yes, Senator. I am very personally familiar 
with that issue, having lived in some of those communities 
myself, and there is definitely a need to provide some 
affordable housing, especially in these areas that have very 
high housing costs. It is just a lot in Colorado but also in 
some of the other States. So we are interested and want to work 
with you to find a way to be able to look at the different 
options that we have to be able to provide housing.
    I know with ski resorts, they have come forward with 
proposals to construct housing that would, at their cost, to be 
able to provide for this. It is something we want to look into, 
but there is definitely a need for this, and not only with the 
ski areas, but just all the services in these communities and 
including our employees too. They struggle with the same issue.
    Senator Bennet. Right. I think we have the opportunity to 
be good neighbors. We just have to break down some of these 
barriers. So I appreciate very much your willingness to work on 
that.
    Then that brings me to my second question, my concerns. I 
do not think this is parochial to be concerned about America's 
watershed, which is in our forests in Colorado. Anybody who is 
downstream of us, which is almost everybody, needs to care 
about the condition of those watersheds and the condition of 
those forests, and this is one of the things that the inability 
of--even though this Committee works well together, the 
inability to be able to really solve some big issues here is 
having a profound effect. I really want to raise the alarm on 
the condition of our national forests and on our inability to 
do the kind of restoration that is required to protect these 
watersheds and communities downstream from these forests.
    I wanted to ask you, Chief--and I know you know this issue 
extremely well, but just to be as candid as possible with the 
Committee--what is the biggest impediment to accomplishing more 
restoration, and to what extent is that about a lack of 
resources, fire borrowing, whatever it is? What can we do to 
finally get to a place where we are making the investment that 
is required here?
    Mr. Tidwell. Senator, first of all, I just cannot thank the 
Committee enough for the 2014 Farm Bill authorities. The 
insects and disease designations, it allows us to be able to 
expedite projects to be able to address that risk. Then the 
Good Neighbor Authority that we are really excited about, now 
we have 95 agreements across the country, and we are just 
really getting started on that. Both of those help us to get 
more work done. It provides additional capacity, and there is 
no question that is one of the challenges that we have.
    The Good Neighbor Authority allows us to be able to work 
with our States, to be able to use the States' personnel, their 
staff to be able to get more work done. But there is no 
question that this issue of how to pay for the cost of wildland 
fire has had a significant impact on our ability, going from 16 
percent of our budget back in 1998 to now over 53 percent, and 
I cannot stress enough, it is not about the budget. It is about 
what is not getting done.
    So during that time, our folks have done a great job to be 
able to continue to get a lot of work done, being very 
innovative, but the consequences of that has resulted in a 40 
percent reduction in our employees that are outside of fire. 
Once again, it is not about our staff, but it is about the work 
that could be done.
    We right now have anywhere from 65-to over 80 million acres 
that our research and our inventory shows that we need to do 
some form of restoration on that to improve the overall health 
of our forests. We are making good progress every year, but 
there is some urgency to this. It is just essential that we 
find the way to be able to increase the pace and scale to get 
the work done to provide for the healthy watersheds, and what 
this does, it just sustains rural America.
    So there seems to be a lot of agreement on this, and we are 
doing what we can to increase our efficiencies. But this is one 
of the things that we are going to continue to be asking for 
your help.
    Senator Bennet. Well, I would say, Mr. Chairman, I want to 
thank you for your leadership and the Ranking Member on this. 
Because of your work on the last Farm Bill, we were able to 
introduce important flexibilities like you are talking about; 
the Good Neighbor Authority, for example. But at a certain 
point--and I am for flexibility. I think it is important. At a 
certain point, we need people on the ground that can do this 
work, and I know in Colorado, for instance, there are a ton of 
veterans that are coming back who would like to do this work on 
behalf of the Forest Service and the country. It would be nice 
to be able to fund that, so we could get it done.
    Thank you, Mr. Chairman.
    Chairman Roberts. Probably one platoon of marines would 
take care of it, do you think?
    Senator Bennet. It would be good. That is all we need.
    Chairman Roberts. All right. Thank you.
    Senator Boozman.
    Senator Bennet. A platoon of marines.
    Senator Stabenow. That is right.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here.
    Our farmers, ranchers, foresters are the original and best 
conservationists, and these voluntary incentive-based 
conservation programs we authorize in the Farm Bill yield 
tremendous benefits to our environment.
    Mr. Bramblett, in Arkansas and several rice-producing 
States, USA Rice and Ducks Unlimited have partnered on a number 
of Regional Conservation Partnership programs, projects that 
have helped many rice producers in my State put voluntary 
conservation practices to work on their farms. Does USDA see 
this as a successful model for conservation, and are there 
flexibilities or tweaks we can add in the Farm Bill that can 
encourage more groups and private partners to utilize the RCPP?
    Mr. Bramblett. Thank you, Senator Boozman.
    I want to echo Chief Tidwell's comments about our 
appreciation for the flexibilities that were given to NRCS in 
the 2014 Farm Bill. Just the range of opportunities and 
activities that we are able to carry out across the landscape 
really begins to boggle the mind once you look at what is 
taking place and the various ways we manifest voluntary 
conservation in partnership with thousands of Federal, State, 
local, and nongovernmental organizations.
    The benefit to the individual landowner cannot be 
overstated. We talked a little bit about that earlier today. 
One example of that is our Conservation Innovation Grant 
program. Through that Conservation Innovation Grant program, we 
work with partners who take our existing footprint of 
conservation practices out there and begin to push the envelope 
and say, ``What else can we do for the benefit of the farmer, 
for the benefit of the environment?''
    As a result, in Arkansas, just the last week or last month, 
we had five producers, rice producers, actually take advantage 
of some precision conservation practice activities that enabled 
them to be able to sell carbon credits to Microsoft. That is a 
pretty fascinating model there.
    We are really appreciative of all the authorities that we 
have, and we continue to work with all of our partners to push 
us and stretch us in a variety of ways. We have mechanisms in 
place, whether it be through State technical committees, where 
local people are telling us what they need, or whether it be 
through interim conservation practices that other people are 
telling us what we need. We have a variety of mechanisms in 
place to respond to the various needs that are coming to us and 
to help out there across the landscape.
    I would say one more thing real quick, and I cannot 
overstate this. I briefly mentioned this earlier, and that is 
the delivery system of NRCS and the Farm Service Agency through 
our service centers.
    If you think about Senator Daines in northwest Montana, we 
have field offices there. If you think about the Mississippi 
Delta of Arkansas, we have field offices there. The men and 
women of USDA know those people in northwestern Montana. They 
know your people in the eastern part of Arkansas. They know the 
culture. They know the agriculture. They know the agricultural 
economy. So what we would continue to request is that you 
continue to give us the authorities that we have, and if you 
have any interest of other ideas of authorities that you would 
like for us to consider, we would be more than happy to give 
you feedback on those.
    Senator Boozman. Thank you very much.
    This is really for all of the panel. Our nation's private 
foresters are facing a critical issue. Projections show we 
could lose up to 34 million acres of forests by 2060 due to 
land conversion to other uses, such as urban sprawl and 
development. We are seeing this in our forests in Arkansas; 
however, because of investments in Farm Bill programs such as 
the Wetlands Reserve Easements Program, Conservation Reserve 
Program, and others, we have been able to keep our forests as 
forests and even plant some healthy young forests.
    I am interested in your thoughts on how each of your 
agencies can support private landowners in retaining their 
forests into the future and how your agencies plan to work 
together, especially given the recent reorganization of USDA. 
Are there tools or flexibilities we can provide you in the Farm 
Bill that would help your agencies and your programs that 
support private forest retention?
    Mr. Tidwell. Well, Senator, I will start, and for us, it is 
our forest stewardship authority that you have provided that 
allows us to work with the State foresters to provide the 
technical expertise so that our private forest owners have the 
ability to access that expertise on sustainable forestry. Not 
only does it provide for sustainable forestry, but it allows 
them to be able to look at making their land economically 
viable so that they can keep their land forested. That is an 
absolute key.
    In addition to that work, to be able to help them put their 
plans together for sustainable forests, we are also doing 
everything we can to be able to expand current markets and also 
develop new markets for wood and wood products, because it is 
absolutely essential that those folks have to make money off 
the land. Otherwise, there is too many other competing issues.
    The other key part about this is that America just needs to 
understand the benefits of forests. We need our agricultural 
lands. We need that agricultural production. But I will tell 
you, when it comes to the clean air, the clean water, the 
wildlife habitat, the recreational settings, the majority of 
that comes off of private land. Over 50 percent of our forests 
in this country are privately owned, and it is just essential 
that those folks, I believe, get the recognition for what they 
provide to America.
    Senator Boozman. Good.
    Mr. Bramblett. If I might add quickly here----
    Senator Boozman. Very quickly because he is going to yell 
at me in a minute.
    Mr. Bramblett. --and that is the range of easement programs 
that we have represent an opportunity, and we have had a lot of 
success in the Northeast where there has been a lot of urban 
pressures to keep lands and forestry.
    I will just speak quickly about the complementary nature of 
our sister agencies, particularly in State and private 
forestry. Foresters are looking at the life of a forest many 
times with a long-term view.
    NRCS and our contributions and complementary relationship 
with the Forest Service and State foresters is to be there at 
those critical moments during the life of a forest, whereas at 
the time of planting or if there is some kind of disaster to 
help get that forest health back in shape or to do that midterm 
thinning to help with forest productivity or to do wildlife 
habitat, to help realize all the benefits that Chief Tidwell 
just talked about.
    Senator Boozman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Chief Tidwell and Mr. Bramblett, Ms. Jones, we are grateful 
you are here.
    I am going to direct a question to Mr. Bramblett, but I 
want to say, Chief, as a Pennsylvanian, I feel compelled to 
mention I think the first Forest Service head was Gifford 
Pinchot, way back in the Teddy Roosevelt days. He later became 
known in our State as the elected governor, but we take, since 
those days, conservation programs very seriously, just like we 
take our forestry service seriously.
    I wanted to focus on conservation and, in particular, the 
challenges we have in the Chesapeake Bay. Mr. Bramblett, you 
know this issue well, and one of my top priorities in the Farm 
Bill when we get to reauthorization is ensuring that not only 
we are focused on the Chesapeake Bay, but that Pennsylvania 
farmers have the resources they need to be able to meet the 
critically important goal of cleaning up the bay, the watershed 
itself. We know that just about half of our State is impacted.
    I have heard from many Pennsylvanians who are disappointed 
in how USDA has implemented the Regional Conservation 
Partnership Program, and I look forward to working with Ranking 
Member Stabenow as well as Senator Van Hollen and others on 
efforts to strengthen that program.
    No matter what improvements are made in the upcoming Farm 
Bill, we know that resources will continue to be limited. Given 
that reality, it is essential that our conservation dollars 
achieve maximum environmental benefits.
    So the first question is, in examining the effectiveness of 
the Natural Resources Conservation Service's conservation 
programs, how does the agency measure success? For example, 
some of the questions we get is, Is it in terms of acres that 
are affected? Is it in terms of contracts signed, practices 
implemented, dollars spent? To what extent do environmental 
outcomes, such as pounds of phosphorus, nitrogen, or sediment, 
sediment reduced from a given project, factor into the agency's 
assessment? So if you can give us an overview of that?
    Mr. Bramblett. Okay. Thank you, Senator Casey, and I 
appreciate the question.
    Traditionally, the metrics that you identified were in the 
ball park, and that is, how many contracts, how many dollars, 
how many acres, and I have even given some of those statistics 
here today.
    The nice thing--this happened in probably the early 2000s, 
around 2001, 2002, 2003--is we embarked upon an effort that we 
call Conservation Evaluation Assessments Project, CEAP. CEAP 
basically uses science-based modeling, not only to measure what 
the impacts that we are accomplishing across the landscape 
happen to be, but also to better inform us on how we are going 
to prioritize these limited resources and make sure the 
conservation practices are directed to where they have the 
biggest bang for the buck.
    But just a couple of examples of the outcome side of this 
equation for CEAP, in the Chesapeake Bay, basically, what we 
have seen is that the work we have done focused through some of 
the Chesapeake Bay funding that you alluded to--the Regional 
Conservation Partnership Program and our ongoing Environmental 
Quality Incentives Program--has led to a 38 percent reduction 
in nitrogen as well as a 45 percent reduction in phosphorus.
    Some of the recent in-stream water quality modeling 
activities or monitoring activities have actually reaffirmed 
that, and all the aquatic habitat studies in the bay are also 
reaffirming that the bay is responding to some of the good 
efforts and work that is being done through voluntary 
conservation.
    I could also point to Senator Stabenow's Western Lake Erie 
Basin and talk in details not only about phosphorus, but with 
the commitment we have made in that area for $77 million--we 
are about to be in the third year of that 3-year commitment--we 
can model with confidence that we are going to reduce 
phosphorus by 840,000 pounds, of which 174,000 pounds will be 
the dissolved reactive phosphorus that is really causing a lot 
of the blooms that we see in Western Lake Erie Basin.
    As far as the Regional Conservation Partnership Program, I 
talked several times about the technical science approach we do 
to conservation planning. Many people--and we also, I should 
say, use the term ``conservation practice'' when we apply 
practices on the ground as opposed to ``best management 
practices,'' and the reason for that is every 5 years, we take 
the latest research and science and incorporate it into our 
conservation practices to reinforce that science-based 
conservation planning approach and then assess it with the 
science approach to give you the outcomes that I just 
mentioned.
    As we were working with partners in the Regional 
Conservation Partnership Program, the knowledge base of 
understanding how much science we actually have in this 
planning process has surprised a lot of our partners, and so we 
are working with them to kind of break that down into 
manageable chunks and relationships where they can be effective 
and truly help us leverage the Federal and non-Federal 
resources that the program was intended to do.
    Senator Casey. Well, thank you for that answer, and I have 
got some follow-ups we will send you in writing.
    Thanks very much, Mr. Chairman.
    Chairman Roberts. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    I would like to thank the witnesses for being here today.
    Ms. Jones, I just want to follow up on the very severe 
drought situation in North Dakota, South Dakota, and Montana. 
As you know, we sent a letter requesting that grazing, 
emergency grazing be allowed on CRP acres. That was granted. We 
appreciate that.
    We are also looking for help through the Livestock Forage 
Program. Can you talk about that a little bit, when we might 
expect that, and what all it can provide?
    Ms. Jones. Thank you, Senator.
    The Livestock Forage Program, that is not under my 
conservation division within USDA, but I would be happy to get 
back with my colleagues at Farm Service Agency and follow up 
with you on that.
    Senator Hoeven. All right. Well, I would sure appreciate 
that information but also any other help that you might be able 
to offer, suggest, recommend in regard to drought assistance.
    Ms. Jones. So we have a number of programs that help with 
drought. Our ECP program, that basically allows us to help with 
water issues for your livestock producers. We also have help 
throughout our ELAP program, and that helps with water hauling, 
so it gets water to the cattle.
    Senator Hoeven. Can you make those available? I mean, are 
our producers in those drought areas eligible to apply for 
those, that assistance right now?
    Ms. Jones. I will have to check on that and get back to 
you.
    Senator Hoeven. Okay. Please do that so that we can help 
them in both those areas.
    Any other ideas that you might have?
    Mr. Bramblett. Senator Hoeven, if I might?
    Senator Hoeven. Please.
    Mr. Bramblett. Again, this is complementary for USDA in the 
way that these agencies are organized. If there is an 
opportunity for Emergency Conservation Program resources to 
North Dakota, NRCS will use the Conservation Technical 
Assistance Program to help support the Farm Services Agency in 
that regard as well.
    If we have easements--if the drought gets severe enough, we 
have easements. That we have occasionally allowed grazing to 
take place on those easements as long as it does not infringe 
upon that taxpayer investment and the intended protections for 
that property.
    Then others that have need for irrigation water management, 
water supplies, we are able to help address those needs as 
well.
    Anyone who has already tried to apply some conservation 
practices, if those do not materialize because the vegetation 
cannot survive the drought, then we will go back and work with 
those landowners also to reestablish those practices.
    Senator Hoeven. How do we activate that assistance through 
the NRCS?
    Mr. Bramblett. It begins with a request to our State 
conservationists. Our State conservationists direct all of the 
USDA NRCS-related programs in any given State.
    Senator Hoeven. So that would be a request we would make?
    Mr. Bramblett. Correct.
    Senator Hoeven. Okay. So we will do that.
    Any other suggestions?
    Mr. Bramblett. No, that--depending on what kind of interest 
and needs you have, if the drought gets severe enough, we have 
in the past had a broader national effort. As you mentioned, 
this is a multi-State drought at this point. So it originally, 
like all of our requests, would begin at a local field office, 
but because these are State-wide, we would like for a request 
like this to begin with our State conservationists.
    If it continues and intensifies, then we would be happy to 
further engage on any other opportunities and resources we 
might be able to bring to bear.
    Senator Hoeven. Okay.
    Chief Tidwell, any thoughts to suggestions you would have?
    Mr. Tidwell. Well, Senator, we have the ability to work 
with the ranchers that graze on the grasslands there to use all 
the flexibilities that we have, to change the rotations, to be 
able to use parts of the grasslands that have been rested, and 
we work very closely with the ranchers so that they are part of 
that decision process, because they too have to be thinking 
about the next year too. We have flexibility that is available 
to work with them to make use of what forage is out there and 
help them get through this drought situation.
    The other thing I would mention also, as things are drying 
out, we are paying close attention with our fire resources to 
make sure that we can quickly respond to be able to help the 
volunteer firefighters out there to be able to respond to any 
fires.
    Senator Hoeven. Are you actively engaged right now on both 
issues, on the drought and on the fire issue?
    Mr. Tidwell. We are. It is one of the things that we can be 
working with the permittees, and definitely, we are paying very 
close attention as the fire season is developing throughout the 
rest of the country.
    Senator Hoeven. Is there action on the part of our 
delegation that would assist with that?
    Mr. Tidwell. I think your questions today, it is very 
helpful, and it is one of the things I will go back and follow 
up to make sure that we are doing everything we can, so thank 
you.
    Senator Hoeven. Appreciate that.
    As we have discussed before, this section line issue is a 
very important one----
    Mr. Tidwell. Yes.
    Senator Hoeven. --for our State, and you know my position 
on that.
    So thanks to all three of you.
    Chairman Roberts. Senator Daines. Senator Daines, before 
you begin your remarks, I want to thank you so much for the 
opportunity enabling me to come to Big Sky Country along with 
our new Secretary of Agriculture, Sonny Perdue, where we not 
only enjoyed ourselves, but learned firsthand of the problems 
that you are facing there, in particular, the crucial need for 
forest management and, in particular, what has been mentioned 
before by all of the witnesses here, doing a much better job.
    I know dollars are important, but the thing that struck me 
the most was your meeting with the county commissioners, and I 
think about eight were present. Only one said he had the 
courage to seek a logging permit. I was rather stunned by the 
fact you are importing lumber from Wyoming, and we know the 
Canadian situation. He remarked, as the others did, ``We have 
tried that, but always we are blocked legally from various 
organizations.'' He is going to try it again, and I give him an 
A for effort. I guess that is an E for effort, isn't it?
    But, at any rate, I think everybody should know that within 
a very few days, you convened an Ag Summit, had about 750 to 
800 cowboys. Pretty hard to get them all in one room with those 
cowboy hats.
    But thank you for your hospitality. Thank you for bringing 
up some pretty severe subjects on hand, and we hope to work 
with them and with you on this Committee. I thank you for that.
    Senator Daines. Mr. Chairman, thank you for the very kind 
remarks, and I am struck as I look at the pad, the notepads we 
have here on the dais. I am reminded. It says the Committee on 
Agriculture, Nutrition, and Forestry.
    Ranking Member Stabenow, I have got increased optimism as a 
new member of this Committee, with this bipartisan spirit, 
truly, that starts with leadership here between the Chairman 
and the Ranking Member, that we may have a chance to move 
forward with some very important reforms that are so needed 
across our country, particularly out West, as it relates to 
forest management. We will hear more about that from our panel 
coming up.
    But I think I do hold the distinction now on the Committee 
of having more national forest acreage than anybody else on 
this Committee. I think we have about 17 million acres in 
Montana. I think Colorado is about 14 million, so that would be 
the silver medal. It drops off pretty fast after that.
    So I will continue to be a voice on behalf of agriculture 
in Montana and on behalf of forestry, and thank you for the 
spirit of bipartisanship I see already in this Committee. It is 
much appreciated.
    I want to thank you for holding this important hearing, and 
I think thanks are also in order--Chief Tidwell, you mentioned 
this, the battle we are facing with severe drought in eastern 
Montana. It is a crisis. We have a crisis on the eastern part 
of our State right now with drought and the ability now to make 
these emergency provisions to allow our ranchers to get onto 
CRP just to keep the cows fed for a period of time. These are 
extraordinary measures, but they are extraordinary times. So 
thank you for your assistance in that regard.
    We also have a crisis in western Montana, in fact, across 
most of Montana with our national forests. I have always 
recognized that forest health is so critical to Montana's well-
being. It is for our loggers. It is for our schools and our 
teachers where the revenues that come off of our public lands 
for our millworkers, for recreationists, for our wildlife. We 
are going to hear from panelists next that will tell us, and we 
will see how the nexus between healthy management of forests 
and better habitat for wildlife, reduce the wildfire risk, 
protecting our watersheds, it all ties together.
    I know there are multiple issues facing the Forest Service 
that diminish their capacity to accomplish the work on the 
ground, such as budgeting for and suppressing wildfire, these 
overlapping and excessive regulatory standards, and perhaps the 
single biggest issue is the ongoing litigation of important 
forest restoration projects.
    Chief Tidwell, it is so good to see you again on this 
Committee. We spent a lot of time engaging on the Energy and 
Natural Resources Committee, but I am glad to have you here 
today.
    We have talked about the impact of litigation many, many 
times. I share the story of northwest Montana. In fact, it was 
the home county of our former governor, Marc Racicot. He was a 
Libby Logger. Libby Loggers--Lincoln County is surrounded by 
beautiful national forests and beautiful timber. We get a 
little more rain up in that part of the State, so the trees 
grow faster, and yet there is not a single mill left in Lincoln 
County. We used to have 30 active mills in Montana when I was a 
kid growing up. We are down to eight, and if you lose that 
infrastructure, which we are teetering right now--I had the 
Chairman out listening to our county commissioners, listening 
to our wildlife advocates, listening to our mill owners. They 
are all running single shift right now. They would be adding 
another shift or two if we could get more logs, as we are 
sitting there having these meetings surrounded by millions of 
acres of timber, 5 million of it that is diseased that we need 
to move in right now and cut down dead trees.
    We have these wonderful collaborative efforts, where we get 
folks from all sides across the spectrum, move forward on these 
collaborative projects, and then folks who are not at the table 
with the collaboration, some of these fringe environmental 
groups then litigate. We are stopped.
    Could you elaborate, perhaps, Chief Tidwell, with the 
background right now? That we have got five projects, as we 
speak today, enjoined by this disastrous Cottonwood decision, 
and many others in Montana are impacted by this litigation. 
Most of these projects were developed, again, through the 
collaborative process.
    Could you briefly tell this Committee? We are kind of 
building Litigation 101 here, because we have got to bring this 
whole Committee up to speed on things we have talked about for 
years. How is litigation from these fringe groups slowing down 
forest management?
    Mr. Tidwell. Senator, thank you for basically making the 
case for all the great work that needs to be done and is 
ongoing, and I cannot give our employees, the State employees, 
and everyone who is working together to be able to move forward 
and get work done--but there is no question that litigation, 
especially this Cottonwood case, has a significant impact on 
our ability to do the work. That is really what the land needs, 
and there is tremendous agreement on it.
    The collaborative groups throughout your State work so hard 
to come together and reach agreement on the type of work that 
needs to be done, and then we do have a much higher occurrence 
of litigation, I am sorry to say, in your State than a lot of 
other places.
    So how it impacts us is that--especially when we get 
enjoined, of course, that just stops the project. But even if 
we are not enjoined, the same people that are out there putting 
the projects together, working with the communities and the 
collaboratives, they have to then stop doing that work, and 
they will put the case report together and then work with the 
attorneys to be able to get the attorneys ready to be able to 
defend the case in court.
    We win over 70, 75 percent of our cases, but the delay that 
occurs is what is really the impact. So it is the delay plus 
the impact on people's time, so it just slows everything down.
    Then we get a case like Cottonwood that has the potential 
to be very far-reaching throughout the entire Ninth Circuit, 
which is a considerable part of our national forests out West. 
This is a case where you have one ruling in the Ninth, a 
different ruling in the Tenth. We have tried to take it to the 
Supreme Court. They did not accept it, and it is one of the 
places where we appreciate your work to be able to introduce 
legislation, to be able to just fix the process.
    This is not about the impact to a species. This is about 
meeting the requirements of a process, and I cannot stress that 
enough.
    But I will tell you, it is tremendously frustrating for our 
employees, our communities, that when they work so hard to 
reach agreement--and we are talking about the conservation 
communities, environmental groups working with the county 
commissioners, with local folks. They reach agreement on the 
work that needs to be done, and then you have someone from 
outside that comes and litigates it. It is just tremendously 
frustrating.
    I am sorry to go on for----
    Senator Daines. Thank you. No, thanks. It is a long 
conversation. I am out of time.
    These Libby Loggers, that is the namesake of this high 
school. When I was in high school, it was a AA school. Now they 
are down to Class B because they have lost their population. 
Unfortunately, we should rename the Libby Loggers, the ``Libby 
Lawyers,'' because that is the only folks crawling around the 
forests right now, the lawyers, because the logger has been put 
out of business.
    We are now getting logs from Canada and other States to try 
to keep our mills alive in Montana.
    Thank you, Chief Tidwell.
    Mr. Chairman, thanks for letting me go over some time here.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. I had 
two other hearings, so I appreciate it.
    In the 2014 Farm Bill, I worked on expanding the Good 
Neighbor Authority that gave the Forest Service additional 
flexibility to work with willing State and private landowners 
to implement forest management practices. Minnesota signed an 
agreement with the Forest Service last year.
    Chief Tidwell, what obstacles have prevented agreements 
from moving forward in a timely manner? We have such deviations 
in how some of our forests are managed, and I thought this Good 
Neighbor program in addition to having a good name would be a 
good way to do it. So can you address that, any obstacles, and 
can you talk about any internal or external reviews that the 
Forest Service has conducted to evaluate the authority since it 
was enacted in the 2014 Farm Bill?
    Mr. Tidwell. Well, Senator, first, I want to stress that as 
we moved forward after you gave us that authority, we sat down 
with our State foresters and actually developed the process 
together and then moved forward, and because of that, we are 
having success.
    Yes, we do have a process in place that we are sharing the 
success that is occurring, but also, when different States run 
into problems or unique situations, we have a team that is in 
place that takes that and looks at what can we be doing 
differently and to make sure that--not everybody has to learn 
how to do this the first time, but we can actually share 
success across the board.
    The one issue I would raise with--and I have heard this 
from our State foresters and our forest supervisors--is that 
these projects we put together, often there is a need for road 
reconstruction and road maintenance to be part of the project, 
and it is one of the things that I am hearing their concerns 
about, if there would be some opportunities to be able to 
address the ability to be able to include that work in these 
agreements. But that is probably one of the things that----
    Senator Klobuchar. Are there some changes you think we can 
make in this Farm Bill to the Good Neighbor Authority to make 
it easier for the States and the Forest Service to use?
    Mr. Tidwell. I do think there are. We would be glad to 
provide everything that we have learned so far and provide a 
short list of how we have been able to move forward and use 
this.
    The other thing I want to stress is that the Good Neighbor 
Authority has tremendous potential for us to be able to really 
share stewardship with our State partners on everything from 
doing the forestry work, but also, there are agreements in 
place to do wildlife improvement work, fisheries improvement. 
We are sharing specialists and also even the potential to 
provide for the recreation opportunities that is so important 
off of it.
    Senator Klobuchar. Okay.
    Mr. Tidwell. So it has great opportunity, and we would be 
glad to provide additional thoughts on that.
    Senator Klobuchar. Also, Senator Daines and I have 
introduced a bill to improve coordination across Federal and 
private boundaries to tackle the difficult management of 
wildlife challenges that--wildfire challenges that many rural 
forest communities face. I think I will just put a question on 
the record about that for you as well as some of the other 
issues we are facing in northern Minnesota that you are aware 
of that I care about very much.
    I will move on here to Mr. Bramblett. Voluntary 
conservation programs like the EQIP program are especially 
popular with conservation-minded younger farmers, yet I have 
concerns--have heard concerns that young farmers are 
experiencing challenges in accessing Federal cost share 
programs due to a lack of information about available programs 
and a burdensome application process. What steps has USDA taken 
to make these programs more accessible? Are there other ideas, 
things we could do in the Farm Bill?
    Mr. Bramblett. Well, thank you, Senator Klobuchar, for the 
question.
    We have a couple of provisions already in place where we 
are able to access and address what we call historically 
underserved clients. Part of those are beginning farmers, and 
so one of those mechanisms has to do with payment rates. 
Generally, a payment rate is set in each State by a State 
technical committee's advice to a State conservationist. Some 
States, it is 50 percent; other States, it is 75 percent.
    The provisions in the Farm Bill allow us to work with 
historically underserved producers, that being beginning 
farmers in this particular case, to increase payment rates to 
as much as 90 percent to help them overcome some of the other 
capital investment barriers they may be facing to try to get 
into farming.
    We also have a variety of what we call outreach activities 
targeted to different historically underserved groups. We can 
get you information to show you what we are doing with respect 
to beginning farmers. I think it is quality information. It 
could be as much of a challenge as the oversubscription to the 
programs that we talked about earlier, where in many cases, we 
are looking at five or six times the demand.
    Senator Klobuchar. Like with the CRP. I know Senator Ernst 
asked you about that.
    Mr. Bramblett. Yeah.
    Senator Klobuchar. Again, an issue in my State.
    Mr. Bramblett. Yes, yes.
    In Minnesota, I should point this out as well. Minnesota 
has a tremendous amount of State resources. So one of the 
things that we do in Minnesota is we work very closely with 
those State resources to make sure we are not duplicating 
efforts and try to extend as much of the Federal and non-
Federal conservation investment as we possibly can. So there is 
always ways to improve business practices, and when we 
collaborate with your office on the activities we are doing, we 
will be happy to discuss the future options and opportunities 
as well.
    Senator Klobuchar. All right. Well, I appreciate it. Thank 
you, and again, I will put some more questions on the record on 
CSP as well as CRP. Thank you.
    Chairman Roberts. Senator Brown.
    Senator Brown. I will pass.
    Chairman Roberts. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    There were--that Senator Klobuchar was between Judiciary 
and here, but appreciate being here.
    I was thinking of Vermont has the reputation for 
agriculture, but 75 percent of our Vermont is forestland. It is 
the third most forested State in the country. A small land area 
remaining for farming, we have to use that very carefully, if 
they have adequate buffers and protections for water quality 
and wildlife by the Farm Bill's Voluntary Conservation Forestry 
Program. But it is such an important role in Vermont.
    So, Chief Tidwell, our forest-based businesses, though, are 
still part of our--a better part of our rural economy. The 
demand for wood pulp and biomass energy has gone down. We need 
new markets for lower-grade wood in the Northeast. Actually, it 
could be said about wood all across the country. One way is to 
accelerate research and development using wood in construction 
not only in tall buildings, but also in transportation, 
bridges, noise barriers, retaining walls.
    So, Chief, I would ask you. The Forest Service has done 
some very substantial work around utilizing smaller diameter of 
wood and a lot of exciting work going on and across laminated 
timber. Do you see the Forest Service exploring ways to expand 
this and even into transportation areas?
    Mr. Tidwell. Well, Senator, yes. In fact, at our Forest 
Products Lab, we are going--been doing ongoing research to be 
able to demonstrate the importance of using wood for things 
like bridges in addition to taller buildings. We just have to 
find every possible way to be able to expand and create new 
markets for wood, to be able to maintain the industry, maintain 
those jobs that is essential for us to be able to manage our 
national forests.
    So whether it is for transportation structures--but 
anywhere we can find new ways to use especially the smaller 
diameter material. There is plenty of demand for the saw 
timber.
    Senator Leahy. I am glad to hear that. Do you have the 
resources necessary to explore the various possibilities you 
might be able to use?
    Mr. Tidwell. So in the fiscal year budget, with our Wood 
Innovation Grants, where we provide funding to basically help 
people be innovative and do different approaches, we have 
provided over $8 million to those groups, and from that is what 
has come out, a lot of the innovation about how to use 
different wood and also even with biomass. So that what we had 
in fiscal year is an adequate level to be able to continue to 
do this work to explore new markets.
    Senator Leahy. I want to ask Mr. Bramblett--incidentally, 
our wonderful Vermont State conservationist, Vicky Drew, speaks 
very highly of you. She worked in Wisconsin and said you 
understand the challenges of implementing conservation, so I 
will give you a shout-out from Ms. Drew.
    But across the country, the Agriculture Conservation 
Easement Program, ACEP, is very important to farms that are 
facing generational transfers. A second panel is going to talk 
about navigating generational transfers. We have a lot of young 
farmers who would not have been able to get a farmer site of 
their own had it not been for conservation easement and 
dedicated priorities of the Vermont Land Trust and all.
    I am deeply concerned the ACEP funding drops to $250 
million. It is a dramatic cut, considering the 2008 Farm Bill 
had an average of $780 million in spending. So if NRCS could 
fund only 14 percent of agricultural land and 16 percent 
wetlands easements when they had the extra money, what are you 
going to be able to do when the funding drops to 250?
    Mr. Bramblett. Well, Senator, we are aware of the pending 
resources that we will be faced with. We are estimating that 
what now is a success rate--I call that being able to fulfill 
applications at 14 percent for ALE and 16 percent for WRE--will 
likely drop to around 7 percent, and so we do not anticipate 
that the demand is going to drop off. But we do want to 
continue to work with a variety of partners to make sure that 
they are doing everything they can, particularly in the 
agricultural land easements program, where the 2014 Farm Bill 
gave some flexibility to those entities to go ahead and be 
certified for appraisals and certified for deeds, so that if 
they do get the resources, they can hasten the process of 
getting those critical lands into easements.
    I would also say real quickly, if I may, Senator, your 
State has an opportunity to help all of us in the natural 
resources community to do something unique. We talked earlier 
about the Conservation Evaluation Assessment Project, CEAP, and 
I know you have got a lot of concerns about water quality 
around Lake Champlain and a lot of the dairies associated with 
that.
    Everybody has tapped into--we have tapped into the hearts, 
soul, minds, and emotions of tens of thousands of producers 
across the country related to soil health. Some of the 
activities we are doing in Vermont related to edge-of-field 
water quality monitoring and the CEAP activities for the 
modeling are going to inform us to take--step out and take the 
lead for agricultural nonpoint source pollution, not just for 
this country, but around the world. So we are really 
appreciative to your constituents, your landowners for working 
with us on some of those edge-of-field monitoring activities.
    Senator Leahy. Thank you.
    Thank you, Mr. Chairman.
    I would hope you get a chance to come to Vermont. You would 
find these areas are nonpartisan. The Republican governor and I 
both would be happy to meet with you up there--in fact, all 
three of you--to see what we have been able to do with limited 
resources in a small State that cares about the environment.
    Thank you.
    Senator Stabenow. [Presiding.] Thank you.
    The Chairman will return in a moment, but Senator Thune has 
joined us. If you have any questions for our first panel?
    Senator Thune. Thank you, Madam Chair, and I will be very 
brief.
    Senator Stabenow. I like the sound of that, actually.
    [Laughter.]
    Senator Thune. Yeah. Okay. I am sure you do.
    [Laughter.]
    Senator Thune. But I want to thank you for holding this 
hearing today on the forestry and conservation titles. Both are 
critically important to my home State of South Dakota.
    First of all, I would like to thank USDA FSA for providing 
additional assistance to those suffering from a severe drought, 
impacting so much of South Dakota.
    According to today's Drought Monitor, only 9 percent of 
South Dakota is not suffering from some level of drought, with 
more than 56 percent suffering from severe drought.
    This drought shows just how important CRP is to States like 
South Dakota, not only because of the environmental and 
wildlife habitat benefits, but also as a source of emergency 
feed when drought occurs, as it does all too often in South 
Dakota. So I want to say thank you to the panelists from USDA 
and across the country, including South Dakota, who are here 
today.
    I would say to Ms. Jones, you are aware of that severe 
drought that we are experiencing in a large portion of South 
Dakota as well as North Dakota and Montana at this time, and I 
want to express my appreciation that certain counties have been 
opened up to emergency grazing of CRP acres.
    However, so much more needs to be done, and you started 
that process by announcing this morning--thank you--that USDA 
will be opening up additional counties for emergency CRP 
grazing and reversing the FSA requirement that certain CRP 
practices subject to mid-contract management be allowed to be 
harvested for hay, instead of cut, baled, and that the bales be 
destroyed, as FSA of South Dakota informed producers by letter 
and the newsletters in the last couple of weeks. That to me is 
a crazy, crazy--I still cannot explain why we would want to 
destroy hay in the middle of a drought.
    So I would ask you to continue to work with me and my staff 
to provide as much assistance as possible to drought-stricken 
farmers and ranchers and would ask will you do as much as you 
possibly can to allow additional assistance from CRP, which I 
think can be done without hampering wildlife and environmental 
benefits. We have some precedent for doing that in the past, 
and there are certain CRP areas that certainly could be opened 
up not only to grazing, but to haying without in any way 
undermining or impairing the wildlife and environmental 
benefits that come with the CRP program.
    So, if you would like to, I would appreciate it if you 
could respond to that question.
    Ms. Jones. Thank you, Senator, for the question.
    The Secretary is committed to continuing to monitor the 
conditions, and he said that he would expand emergency 
authority if conditions worsen, and that included the 
authorization of emergency grazing in drought counties to all 
practices, including grass covers and emergency haying in those 
counties during the primary nesting season. So we will just 
continue to work with you and understand better the conditions 
in your State.
    Senator Thune. Thank you.
    I would just say that we hope and we have seen in the past, 
even as early as July 15th, CRP acres be opened up to haying as 
well.
    There are going to be real serious feed shortages out there 
this year, and in the past, that has proven to be a very 
effective way of helping address and give some relief to those 
producers who are struggling with the drought and the lack of 
feed to feed their livestock.
    I think this panel is wrapping up, so I will conclude with 
that, and if I have other questions, I will submit them for the 
record.
    Thank you.
    Thank you, Mr. Chairman, and welcome back.
    Chairman Roberts. [Presiding.] Well, thank you, Coop.
    That concludes our first panel. I want to thank you all for 
your testimony, more especially for your specific questions, to 
the answers by the Committee. We will be submitting questions 
to the record for you, and we hope to hear back as your time 
permits.
    We would now like to welcome our second panel of witnesses 
before the Committee this morning, and we will take the 
appropriate time for that to happen.
    [Pause.]
    Chairman Roberts. Welcome to our second panel of witnesses 
before the Committee this morning.
    I now turn to the distinguished Senator from South Dakota 
to introduce our first witness. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman, and I again want to 
thank you and Ranking Member Stabenow.
    I am pleased today to be able to have a South Dakota 
witness, Mr. Steve Horning from Watertown. Not only is he a 
farmer, he is also a CPA. Makes him doubly dangerous. As his 
testimony shows us, he knows the dollar-and-cents value of 
conservation on his farming operation.
    Steve graduated from Watertown High School in 1965 and 
received a Bachelor of Science in Business Administration in 
1970 from the University of South Dakota. He became a Certified 
Public Accountant in 1970, working for a national accounting 
firm, then a regional accounting firm, and in 1975, he opened 
his own practice. In 1976, he was married to Kathy Stein in 
Watertown, South Dakota, and they have one son, Ted Horning, 
who was born in 1980. In 2002, his wife passed away due to 
cancer.
    After receiving his Master's Degree in Business Taxation 
from the University of Minnesota, Ted Horning joined Steve in 
2005 and formed Horning & Horning, P.C., where they still both 
actively practice public accounting.
    Steve was a member of the Watertown School Board from 1979 
to 1986, and he started buying farmland in 1990 and currently 
operates Horning Farm, a small grain farming operation.
    So, Steve, welcome. It is great to have you here. We 
appreciate your taking the time away from your commitments at 
home to be with us.
    Mr. Chairman, I am delighted to recognize our witness from 
the State of South Dakota. Thank you.
    Chairman Roberts. Thank you, Senator.
    Senator Cochran was to introduce our next witness, very 
proudly, but he has been called away on another commitment. So 
we have Mr. Paul Dees.
    Paul, thank you for being here.
    Paul and his wife live in Leland, Mississippi, and are in 
the family farming business raising rice, corn, and soybeans. 
In addition to growing agricultural crops, he is also a 
timberland owner.
    Paul joins us today as Chairman of the Board for Delta 
Wildlife.
    So, Paul, we thank you for participating in today's 
hearing.
    I have the pleasure of introducing Ms. Barb Downey of 
Downey Ranch, who joins us from Wamego, Kansas, where she and 
her husband, Joe, are third-generation cattle ranchers. They 
are assisted in their day-to-day operations by the fourth 
generation, their daughters Anna and Laura.
    The Downey Ranch is located in the heart of the Flint 
Hills. Kansas is not all flat. We have the Flint Hills. It is 
beautiful country, I just want to let you know, when you are 
driving I-70 from Missouri to Colorado. At any rate, they are 
located in the heart of the Flint Hills, which is beautiful 
country, comprised mostly of tallgrass prairie, which makes it 
an ideal location for producing high-quality beef.
    Barb is also a member of the National Cattlemen's Beef 
Association.
    Welcome, and thank you for traveling here to be part of 
today's panel.
    I now turn to the distinguished Senator from Michigan, 
Senator--I beg your pardon. This is Ohio. This is not Michigan.
    Senator Stabenow. That is right.
    Chairman Roberts. I now turn to the distinguished Senator 
from Ohio, Senator Brown.
    Senator Brown. Thank you, Mr. Chairman, and thanks for the 
opportunity to introduce my longtime friend, Adam Sharp.
    I apologize for in and out. I have got to go back to the 
Banking Committee but want to be back for the question period.
    It is my pleasure to introduce Adam, executive vice 
president of the Ohio Farm Bureau Federation. We have known 
each other for years, have long relied, as has Jon McCracken in 
my office and Joe Schultz before that, on his policy expertise. 
I make no apologies to my colleagues when I say that Adam is 
the best Farm Bureau executive in the United States.
    Adam's passion for farming started as a young man working 
on his family farm, which he operates today with his brothers. 
His work in public policy is guided by firsthand experience. He 
spent his entire career farming and advocating for other 
farmers. Because of his leadership, Ohio farmers are taking a 
proactive role in improving the State's water quality. He 
understands ag's central role in Ohio's economy. He understands 
the responsibility farmers have towards environmental 
stewardship. The Ohio Farm Bureau Federation's Demonstration 
Farm is only the most recent example of his commitment to 
bringing people together to promote best practices for Ohio 
farmers.
    We were standing in the back room--Jon and Adam and Joe and 
Tommy and I just talking about--and the passion I can see about 
what he is working with, local Farm Bureau presidents and the 
State Farm Bureau Federation board, and really educating and 
working with and encouraging and listening to farmers. 
Especially with the problems we have had with the great Lakes, 
it is particularly important for our State.
    Adam, welcome.
    Thanks.
    Chairman Roberts. Thank you, Senator Brown.
    I now turn to our distinguished Senator from Alabama, 
Senator Strange, to introduce our next witness. Senator 
Strange.
    Senator Strange. Thank you, Mr. Chairman. I am pleased we 
are joined by my friend and a fellow sportsman, Dr. Salem 
Saloom, on our witness panel this morning. Dr. Saloom and his 
wife own and manage over 2,000 acres on a tree farm in Conecuh 
County, Alabama.
    Salem recently finished serving a 6-year term as 
commissioner on the Alabama Forestry Commission. Along with 
being a leader in the forestry industry, Dr. Saloom is a 
general surgeon, and he and his wife serve often around the 
world on medical missionaries in developing countries.
    To add to his already extensive resume, Dr. Saloom is an 
Eagle Scout, something that he and I both proudly share, and I 
want to thank my friend for traveling to Washington today for 
his efforts, not only in the industry, but in his community 
where he is a very prominent physician, and we look forward to 
your testimony and expertise on forestry and conservation.
    Chairman Roberts. We now turn to our next witness from 
Montana, my newfound friend, and I turn to my distinguished 
colleague, Senator Daines, to introduce our next witness.
    Senator Daines. Thank you, Mr. Chairman. We are all 
competing here for who has got the best witness here today. I 
would humbly and proudly submit, I do.
    Chuck Roady is from Montana. He is vice president and 
general manager of F.H. Stoltze Land and Lumber Company from 
Columbia Falls, Montana. Stoltze has been helping to manage the 
woods and sustain the community in northwest Montana--listen to 
this--for almost 105 years and has done so against great odds.
    Chuck is also on the board of the Federal Forest Resource 
Coalition. They represent timber from 32 States. That is 
390,000 people, $19 billion in payroll.
    But here is the most important thing about Chuck. He is 
past chairman and current board member of the Rocky Mountain 
Elk Foundation. It is one of the country's fastest-growing 
hunting and conservation groups. For those of you who are not 
from Montana, I will humbly remind you elk hunting is not a 
sport. It is a religion, and I am also a convert. Chuck is a 
great sportsman.
    Thank you for leaving the beautiful beauties of western 
Montana and coming to the swamp to fight on behalf of forest 
management. Thanks, Chuck.
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman, and it is 
my great pleasure to introduce Dr. Chris Topik, who is the 
director of The Nature Conservancy's Restoring America's 
Forests Program, which aims to restore forest health and 
improve the ecological management of America's forests.
    Previously, Chris was professional staff for the House of 
Representatives Appropriations Committee for 15 years, where he 
served both Democratic and Republican chairmen. Earlier in his 
career, he worked for the Forest Service for 16 years. Chris 
has an undergraduate degree in Marine Biology from the 
University of California, San Diego, and a PhD in Forest 
Ecology from the University of Oregon.
    We welcome you.
    Chairman Roberts. Mr. Horning, please proceed.

  STATEMENT OF STEVE HORNING, HORNING FARMS, WATERTOWN, SOUTH 
                             DAKOTA

    Mr. Horning. Good morning.
    Chairman Roberts. Good morning, sir.
    Mr. Horning. Chairman Roberts, Ranking Member Stabenow, and 
members of the Committee, my name is Steve Horning. I am a 
Certified Public Accountant in public practice and owner of 
Horning Farms in Watertown, South Dakota.
    Because of my love for pheasant hunting, I started to buy 
farmland in 1990. I now own 10,000 acres of farmland. I produce 
corn, soybeans, wheat, and rent out my pasture to local 
farmers. I follow the model of ``farm the best and conserve the 
rest.'' Before I would consider purchasing land, I would see 
what I could do to improve the land for conservation. If I 
could not improve it, I would not buy it.
    The primary program I have used is the Conservation Reserve 
Program. My CRP practice includes restoring grassland, 
implementing buffers, planting tree wind breaks, restoring 
wetland areas. More recently, I installed pollinator practices.
    I have also utilized WRP and WRE for long-term easements. I 
depend upon technical and financial assistance from USDA; NRCS; 
FSA; Game, Fish, and Parks; U.S. Fish and Wildlife; Pheasants 
Forever. All of these conservation practices provide for 
optimal habitat for wildlife. Pheasant hunting is a major 
economic driver for small rural communities, bringing in over 
$230 million annually to small mom-and-pop businesses in South 
Dakota.
    South Dakota Game, Fish, and Parks started a new landowner 
recognition award in 2010. I was extremely honored to be the 
first to receive the Habitat Partner of the Year Award. Along 
with this, I have been recognized by the South Dakota Chapters 
of Pheasants Forever as their conservationist for the year of 
2009.
    My purpose to meet with you today is to inform you of the 
need to increase the CRP acreage cap. I have had good success 
in past general CRP sign-ups. I have had about a 75 percent 
approval on my applications. Then came sign-up 49 in 2016. I 
was zero for six. In fact, the whole State of South Dakota only 
had two contracts approved for a total of 101 acres. There were 
over 43,000 acres offered. This was one of the worst acceptance 
rates in the country. You can see the table included in my 
written testimony. I would ask that you would take a serious 
look at the CRP cap and how landowners can sign up.
    Another concern of mine is the mid-management of CRP 
contracts. Every 4 to 5 years, you must either have a 
prescribed burn or mow, bale, and destroy the grass. I suggest 
instead of you paying me cost share to waste the grass, you let 
me hay it and use it for livestock feed. I have utilized the 
haying and grazing option with my CRP. During 2012, because of 
emergency, I was allowed to hay some of my easement ground, and 
as relevant today, 2017 also.
    My livestock neighbors call me annually requesting to hay 
my CRP. If you would allow me to mid-manage one-fifth to one-
third of my CRP grasses each year, it would save the government 
twofold; first, by not paying me to waste the grass. Second, I 
would receive a reduction in my CRP payment for the value of 
the grass.
    We must be cautious about the impact to soil, erosion, and 
wildlife. Timing of haying and grazing is also critical, and we 
should keep nesting season in mind as to minimize the impact to 
wildlife.
    In my written testimony, I have discussed crop insurance. 
Please review the table showing my crop insurance premiums from 
2014 to 2016.
    In closing, please consider the recent demands from 
farmers, ranchers, and landowners for these programs.
    Thank you, and I look forward to any questions.
    [The prepared statement of Mr. Horning can be found on page 
86 in the appendix.]
    Chairman Roberts. We thank you, Mr. Horning.
    Mr. Dees.

     STATEMENT OF PAUL D. DEES, CHAIRMAN, DELTA WILDLIFE, 
                    STONEVILLE, MISSISSIPPI

    Mr. Dees. Thank you, Chairman Roberts and members of the 
Committee, for holding this hearing to gather comments on the 
efficacy of past conservation programs and input for future 
ones. I appreciate the opportunity to offer testimony on behalf 
of Delta Wildlife.
    As a landowner, farmer, conservationist, and sportsman, the 
things that are discussed in this room are not abstract to me. 
They impact me directly.
    I would like you all to know as well that Delta Wildlife 
represents the Delta Region of Mississippi, and that is where 
80 percent of the State's row crop agriculture takes place.
    I am also pleased to speak on behalf do Delta Council, 
Delta F.A.R.M., Delta Waterfowl, and the Rice Stewardship 
Partnership formed by the USA Rice Federation and Ducks 
Unlimited. Our collective message places emphasis on what we 
believe should be the two primary things the next conservation 
title focuses on, which is working lands conservation as well 
as active management.
    So now that that is out of the way, I can kind of get into 
the meat and potatoes of this thing. You heard Mr. Bramblett 
and Ms. Jones speak earlier extensively about EQIP and CSP. In 
our region, EQIP has incentivized many producers to begin using 
tools to reduce our environmental footprint and enhance 
wildlife habitat. Incentive is required, as change is not 
readily embraced where there is uncertainty of success on your 
farm and the cost associated with that change, even for those 
who do not meet the programmatic means test.
    In the Delta, it is common for farmers to rent much of 
their cropland, and that is a key point, because if you are 
renting your cropland, you find it difficult to invest 
significant amounts of capital into someone else's land without 
a cost-sharing program like EQIP.
    It is our view that EQIP could be strengthened by several 
means. Number one, give the States more authority and 
flexibility to implement and administer Title II programs. Two, 
abandon the System for Award Management, or SAM. Three, 
increase funding for water supply and soil health initiatives; 
and four, increase funding and focus to incentivize wildlife 
management practices on cropland and other working lands.
    Mr. Bramblett spoke extensively about CSP and its 
successes, and he mentioned the backlog. I am part of that 
backlog. In my county and the ones surrounding it, there are 
154 producers who are eligible but have unfunded applications. 
Beyond traditional working land conservation programs like EQIP 
and CSP, there are other valuable conservation programs that 
could benefit from a renewed focus on active management.
    In the last Farm Bill, this Committee--and I thank you--
provided additional flexibility that has already been discussed 
for managing CRP contracts, but this same thing has not 
happened in WRP and WRE programs. There needs to be greater 
flexibility in these programs for active management mid 
contract.
    There are 2.7 million acres of land enrolled in WRP and 
WRE, and if they are not managed appropriately, their wildlife 
value will be diminished.
    On behalf of Delta Wildlife and our partners in agriculture 
and conservation, we want to express our most sincere 
appreciation to you, Chairman Roberts, and the rest of the 
Committee for this opportunity.
    [The prepared statement of Mr. Dees can be found on page 75 
in the appendix.]
    Chairman Roberts. Thanks you, Mr. Dees.
    Barb, you are up.

    STATEMENT OF BARB DOWNEY, DOWNEY RANCH, WAMEGO, KANSAS.

    Ms. Downey. Thank you, Chairman Roberts and Ranking Member 
Stabenow, for allowing me to testify today.
    My name is Barb Downey. My husband, Joe Carpenter, and I 
run the Downey Ranch in the beautiful Flint Hills of eastern 
Kansas. This land has been an ideal location for our cattle, 
our family-run cattle ranching operations.
    Family ranches like mine are threatened daily by urban 
encroachment, natural disasters, and government overreach. 
Since our livelihood is made on the land through the 
utilization of our natural resources, being good stewards of 
these only make good environmental sense in addition to being 
fundamental for our industry to remain strong.
    Ranchers pride themselves on being good stewards of our 
country's natural resources. The Downey Ranch employs various 
programs, some of which we have put in place utilizing NRCS 
programs, such as the Environmental Quality Incentives Program, 
or EQIP. EQIP is improving habitat for grassland-nesting birds 
like the greater prairie chicken we see increasing on our 
ranch, as well as enhancing the health of grazing lands, 
improving water and soil quality, and reducing soil erosion.
    One important feature of EQIP has been its focus on 
livestock operations, and we would like to see continued 
funding to preserve this program in the 2018 Farm Bill.
    During the extensive drought of 2011 to 2015 that we 
endured, springs and ponds across our countryside dried up. Had 
we not taken proactive efforts to improve our drought 
resilience, we would have been in a dire situation. We had 
installed ponds with controlled-access drinking points, so that 
our banks do not erode, our ponds do not silt in, and the water 
stays clean. Then we put terraces around those ponds, so that 
any water from the area's cattle that are grazing is filtered 
through the grasslands.
    A major creek runs through our ranch, and there is a public 
recreation area just 2 miles downstream. Thousands of people, 
including my family, wade and swim in those waters every year. 
So we fenced cattle away from the creek, and we only cross it 
at one location we deliberately chose because it has a rock 
bottom and no sediments are disturbed.
    We used EQIP to install two of our eight controlled-access 
ponds. The success of these ponds led Senator Jerry Moran, 
other legislators, the State director of the Kansas NRCS, and 
others from NRCS in D.C. to come out and see what we were 
doing.
    In our grazing practices, we use an approach that 
replicates bison herd movement. We run one big herd of cows 
through several small different pastures. As a result, we have 
seen plants that are typically grazed out returning to our 
native pastures.
    Another key to improving the grass on our ranch is brush 
control. Encroachment of trees, brush, and noxious weeds 
threatens the very existence of the tallgrass prairie 
ecosystem. We use a variety of ways to reduce this brush, 
including mechanical control and prescribed burns. We have been 
community leaders in promoting and using online smoke 
prediction tools to comply with our State's Smoke Management 
Plan.
    Flexibility is key to ranchers using conservation programs. 
We are working with innovators in scheme of chemical control 
for the noxious weed sericea lespedeza, supplemented with a 
fall burning. It has been shown to reduce seed production from 
800 seeds per plant down to one or two. When those seeds stay 
viable for 20 years, that is huge.
    This ability to innovate and adapt with local agent 
oversight would allow integrated and holistic strategies to 
evolve.
    The last point I would like you all to take away from this 
hearing is the voluntary part of conservation programs. It is 
what makes it truly work for us ranchers.
    We have had success using some of these programs, but just 
because it works for us does not mean it works for our 
neighbors. It is important we keep these programs funded to 
safeguard their continued success, and above all else, these 
programs must stay voluntary. A one-size-fits-all approach that 
accompanies top-down regulation does not work out in the 
countryside.
    Thank you for your time, and I look forward to questions.
    [The prepared statement of Ms. Downey can be found on page 
81 in the appendix.]
    Chairman Roberts. Thank you very much. You hit the clock 
right on the money.
    [Laughter.]
    Chairman Roberts. Mr. Sharp.

 STATEMENT OF ADAM SHARP, EXECUTIVE VICE PRESIDENT, OHIO FARM 
               BUREAU FEDERATION, COLUMBUS, OHIO

    Mr. Sharp. Thank you. Thank you, Mr. Chairman, Ranking 
Member Stabenow, and the rest of the Committee.
    The environmental challenges we face in Ohio are well 
documented, particularly related to nutrient issues and water 
quality. I am proud of how focused Ohio's farmers are in 
working to address nutrient run-off issues, and I appreciate 
the opportunity to share with you the value of our State 
partnerships, which are supported by our Federal conservation 
programs.
    Farmers have invested tens of millions of dollars of their 
own money in establishing voluntary conservation practices on 
their farms. In addition, the industry has invested millions 
more in outreach and research projects.
    Our efforts have been successful. A couple of the numbers 
that I wanted to share with you today is between 2006 and 2012, 
farmers have voluntarily reduced phosphorus applications in the 
Western Lake Erie Basin of Ohio by more than 13 million pounds.
    One of the most critical partnerships for farmers is the 
USDA's NRCS in using working lands, conservation tools provided 
through the Farm Bill, programs such as EQIP, CSP, and the 
RCPP, the Regional Conservation Partnership Program.
    Between 2009 and 2014, NRCS provided almost $57 million to 
fund over 2,000 conservation contracts on over 435,000 acres in 
the Western Lake Erie Basin. As an organization that represents 
and promotes working land programs over retirement programs, 
programs such as EQIP and RCPP fit right in line with our 
organizational policy.
    Today, I wanted to share with you two key examples of the 
critical programming that have been provided through the Farm 
Bill. The first is our Demonstration Farms in Ohio. It is only 
the second in the nation to be established. This Demonstration 
Farm is located in the heart of the Lake Erie's Western Basin.
    The farmers that are participating voluntarily in this 
Demonstration Farm project have done so to demonstrate both new 
skills that are innovative, but also skills that are approved 
by NRCS, but also looking at new research and new practices 
that could also be shared with farmers across the Western Lake 
Erie Basin to educate and to learn more about what we can do on 
nutrient management.
    The farm organizations involved in this endeavor have 
voluntarily taken on this project. The three farmers that I 
will mention real quick--the Kelloggs, the Kurts, and the 
Stateler Farms--we really appreciate. This is a $1 million 
project. It stretches over 5 years, and the funding is--and it 
is jointly funded by both the NRCS and the Ohio Farm Bureau.
    The second item I would like to mention is our work on the 
Regional Conservation Partnership Programs. Ohio agriculture 
and conservation organizations took an active role in 
supporting the Farm Bill's Regional Conservation Partnership 
Program. They committed resources to the public-private 
partnership. We appreciate that Congress and this Committee 
specifically saw the importance of this program.
    In 2015, USDA awarded $17 million to an RCPP project in 
Western Lake Erie Basin of Ohio. The target approach focuses 
efforts on over 855,000 acres that have been identified as the 
most critical areas within a 7-million-acre watershed. The 5-
year multi-State project includes more than 40 collaborative 
partners, including Ohio, Michigan, Indiana State governments, 
local governments, the Farm Bureaus of all three States, 
environmental groups, The Nature Conservancy, Ducks Unlimited, 
and others, including, I might add, the Ohio State University 
and the University of Michigan, which is not always the best 
partnership that we can always get together. So we are very 
proud that this program did bring those two fine universities 
together.
    The Western Lake Erie Basin Initiative also was another 
project that we are very proud of to have launched in the 
Western Lake Erie Basin. In 2016, this program that was 
supported by Ranking Member Stabenow, Senator Brown, and 
Senator Donnelly, it helps to also invest additional dollars in 
conservation practices to reduce the amount of phosphorus 
leaving our farms. To date, this project also can be credited 
for over 640,000 pounds per year of less phosphorus entering 
Lake Erie.
    As a result, farmer surveys in the Basin show that 
voluntary conservation is making a significant headway in 
reducing nutrient sediment from losses from our farms, and this 
is absolutely critical.
    I appreciate the opportunity today to address you and to 
talk about our terrific partnership with NRCS and Ohio and some 
of the innovative activities that we are partaking in.
    We support this Committee's efforts to prioritize working 
lands conservation programs in the upcoming 2018 Farm Bill.
    Thank you.
    [The prepared statement of Mr. Sharp can be found on page 
111 in the appendix.]
    Chairman Roberts. Mr. Sharp, thank you very much. You know 
because of my position, however, that if I have a choice 
between Spartans and Buckeyes, this is where I have to go.
    Senator Stabenow. Exactly.
    [Laughter.]
    Chairman Roberts. Dr. Saloom.

STATEMENT OF SALEM SALOOM, M.D., TREE FARMER AND OWNER, SALOOM 
                  PROPERTIES, BREWTON, ALABAMA

    Dr. Saloom. Chairman Roberts, Ranking Member Stabenow, and 
members of the Committee, I am pleased to join you today to 
provide testimony on the Farm Bill's forestry and conservation 
tools. Thank you very much for this opportunity.
    My wife Dianne and I own and care for 2,200 acres of forest 
in south Alabama in Conecuh County. We are 2 of the 22 million 
people in America who own forests. In 2004, Hurricane Ivan made 
landfall and absolutely devastated our forestland. If it was 
not for the Farm Bill's conservation programs and this 
Committee's efforts to ensure a forest owner's ability to 
access these programs, we would be in a different place today.
    With the help of the State Service Foresters from the 
Alabama Forestry Commission as well as USDA technical staff and 
our consulting forester, we were able to restore our land, 
transitioning into longleaf pine, which we found to be more 
resistant to hurricanes.
    The role that these conservation programs often play in 
forest management cannot be understated, and I urge you to 
maintain funding for and forest inclusion in the Farm Bill 
programs like the Environmental Quality Incentive Program, the 
Conservation Stewardship Program and Conservation Reserve 
Program and the Regional Conservation Partnership Program.
    Additionally, increasing technical assistance for new 
landowners seeking to access these programs and streamlining 
plan requirements would both be highly beneficial in increasing 
participation.
    Our work with the Farm Bill's programs also help us to 
discover benefits our forest could provide local endangered 
species. By working closely with U.S. Fish and Wildlife Service 
to secure regulatory assurances, we were able to expand the 
activities that benefit these species without having to be 
concerned that we are exposing ourselves to the sort of 
additional regulatory risk under the Endangered Species Act.
    But I am a unique landowner. Most landowners do not have 
that relationship with these agencies and are worried about 
doing more for species that face regulatory risk. I hope that 
the next Farm Bill can provide additional tools to streamline 
regulatory assurance for landowners voluntarily protecting at-
risk species.
    Landowners like us also need diverse markets to sell our 
timber that we harvest. Support for a successful forest 
products industry in the next Farm Bill will go a long way 
toward ensuring the vibrant markets that we need.
    I would finally like to note that successful forest policy 
does not end at the boundary lines, as we see every year in the 
forest fires that consume millions of acres, regardless of 
owner. For this reason, programs that address Federal lands 
should also encourage cross-boundary, landscape-scale 
cooperative efforts like outlined in Senators Klobuchar and 
Daines' legislation.
    Thank you. I am happy to answer any questions at the 
appropriate time.
    [The prepared statement of Dr. Saloom can be found on page 
103 in the appendix.]
    Chairman Roberts. We thank you, Doctor.
    Chuck?

 STATEMENT OF CHUCK ROADY, VICE PRESIDENT AND GENERAL MANAGER, 
 F.H. STOLTZE LAND AND LUMBER COMPANY, COLUMBIA FALLS, MONTANA

    Mr. Roady. So thank you, Chairman Roberts. I would also 
like to thank Senator Daines. That was a very kind 
introduction. I hope I can live up to that.
    I am privileged to live and work in the Rocky Mountain 
West, and I have helped manage our precious forests in Montana 
for almost my whole life, and it means a lot to me.
    First, I want to thank Senate Daines for hosting the 
Agricultural Summit in Montana and for you, Chairman Roberts, 
for coming out to see our piece of paradise, not that Kansas is 
not paradise. We appreciate your commitment and also the 
support of Secretary Perdue to start to turn around our 
struggling communities and help our forests.
    Second, I want to thank the Committee for the forest 
authorities that were provided in the 2014 Farm Bill. They are 
a model to build upon for this next Farm Bill.
    I will highlight some areas where we believe the approach 
embodied in the 2014 bill can be expanded and improved upon.
    The insect and disease provisions from the 2014 Farm Bill 
have been very effective. The Forest Service tells us that by 
using them, they can treat twice as many acres in one-third the 
amount of time needed over the older NEPA approaches. So over a 
dozen projects covering more than 15,000 acres have been 
conducted in Montana alone and with an additional five projects 
covering 12,000 acres that are under way right now.
    However, we need to drastically scale up and pick up the 
pace. We need to streamline the approaches, and if we are ever 
going to get ahead of the forest health problems that plague 
our national forests, we have got to pick up the pace.
    The fact remains that 4.9 million acres were designated in 
Montana alone, and over 56 million acres were designated in 37 
States across the nation. At the current pace of this 
treatment, it will take over 440 years to treat all 56 million 
acres designated for treatment in 2016, and I earlier heard the 
Chief say it is now up to 65 million acres that need treatment. 
Needless to say, the time horizon does not do much for our 
rural communities. We need the help right now.
    While many of our forest management projects in Montana are 
developed through the collaborative approaches, we still face 
some obstacles to success because of the rampant litigation. It 
is out of control. My company is involved in at least a half a 
dozen formal collaborative groups and many smaller project and 
specific collaboratives that we work on. I can tell you from 
experience, a few bad actors can sit out the collaborative 
process, and they still delay all these projects.
    The East Reservoir Project is a project on the Kootenai 
National Forest, just to the west of my facility, and it is a 
case in point. We worked 4 years with our collaborative 
partners on a project to design and improve the wildlife 
habitat, reduce the fire danger, and the project now has been 
in and out of the courts for the last few years. Thanks to one 
of our frequent flyer litigants, it was enjoined last year and 
will remain so at least until this fall.
    This is not an isolated incident: 38 timber sales in my 
region, Region 1, are under litigation; 23 of these are not 
going forward. 17,000 acres of timber harvest and more than 171 
million board feet of timber are held up in litigation right 
now in Region 1 at this moment. That is a significant number of 
real jobs, family wage-type jobs that are in jeopardy because 
of this litigation. That is why expanding the current CEs to 
more forest types, increasing the size of the projects, will 
start help turning the tide on our national forests.
    Now, some of the early seral stage CEs will particularly be 
helpful in our eastern and our southern national forests, while 
the ability to salvage timber on appropriate acres will help 
tremendously in the western forests.
    On behalf of the industry, I again want to thank this 
Committee for your bipartisan efforts. It shows cooperation 
while giving the Forest Service some new management tools. We 
realize there are jurisdictional issues, but we also hope that 
Congress can find its way to address the fire borrowing problem 
that has plagued the Forest Service for more than a decade.
    Thanks a lot for your time. Any major reforms that this 
Committee can come up with through a bipartisan basis can help 
both our local communities and our nation as a whole. It could 
help us nationwide a lot, not just the West.
    [The prepared statement of Mr. Roady can be found on page 
95 in the appendix.]
    Chairman Roberts. Thank you, sir.
    Dr. Topik.

   STATEMENT OF CHRISTOPHER TOPIK, PH.D., DIRECTOR OF NORTH 
 AMERICA FOREST RESTORATION, NORTH AMERICA REGION, THE NATURE 
                CONSERVANCY, ARLINGTON, VIRGINIA

    Mr. Topik. Thank you.
    I am proud to represent The Nature Conservancy. Our mission 
is to conserve the lands and waters on which all life depends. 
We have been doing this for over 65 years. We work in all 
States, the District, territories, and now 70 nations. We own 
and operate a lot of our own land, and we are deeply familiar 
with conservation practices as well as the production of 
forest, farm, and ranching products.
    For instance, our Two-Hearted River Forest in Michigan is 
vital to protect Great Lakes water and restore forest 
sustainability, while also producing high-quality wood 
products.
    This year, the NCAA Championship Final Four basketball game 
was played on a court made from our wood, on wood made by 
Connor Sports in Michigan.
    Besides owning land, we are involved in a nearly endless 
array of conservation partnerships. We recognize the Farm Bill 
as one of America's great conservation tools. We are deeply 
engaged in farming and ranching policies, but today I am going 
to just talk about forests, which is my area of expertise.
    I also want to note that we are working with a bunch of 
coalitions, including the Forests and the Farm Bill coalition.
    Our forests are currently stressed by climate and land use 
changes. The Farm Bill can help make forests healthy so they 
can be part of the solution to climate stresses and rural 
economic problems. In the years ahead, climate change will 
dictate that we invest in maintaining the powerful carbon 
sequestration function of our forests, while also protecting 
and enhancing water production.
    I want to stress TNC's appreciation for strong forestry 
provisions in the last Farm Bill. I also thank you for making 
the Forest Service stewardship contracting permanent and 
expanding Good Neighbor Authority. These authorities are 
powerful tools that increase the workforce and funding so more 
and larger forest restoration is done.
    The next Farm Bill must continue to fund this forestry work 
throughout the conservation and forestry titles and allow the 
benefits of forests to be used to enhance rural development. We 
recommend that forest landowners continue to be encouraged to 
participate at greater rates in programs such as EQIP, CRP, 
ACEP, and others.
    In particular, Congress should support strategic programs 
that provide large landscape benefits. The Regional 
Conservation Partnership Program, you have heard a lot about it 
today, is a big success. We can and we should build on it.
    Substantial cross-boundary private and public forestry is 
getting done through the Joint Chiefs Landscape Restoration 
Partnership. These model strategic forest projects produce 
needed timber, while enhancing source water quality and 
delivery that our agriculture and cities depend on.
    I also need to stress the need to maintain and enhance 
vital forestry research and science capacity, and to use it to 
guide sound forest management.
    Finally, as you have heard, it is time for Congress to 
solve the Federal fire suppression funding mess. A bipartisan 
solution should address three key issues: budget erosion, 
access to disaster funding for bad fires, and an end to 
emergency fire borrowing. Forest Service budgets have lost half 
of their buying power since the 1990s, so we all need to push 
for a variety of investments that will provide society the 
benefits of healthy forests and rivers.
    I also want to encourage you to avoid amending Federal 
forest management laws to exclude the public by shortcutting 
NEPA, which would lead to worse decisions than occur with open 
and collaborative forestry. I do not think the Farm Bill should 
get sidetracked on this. I hope you can leave the E in NEPA. 
Please focus on the widely supported funding and policies that 
help forestland owners and our environment.
    Forest Service land management can be improved by 
increasing partnerships with many more sectors and by 
integrating local, county, tribal, and State sectors into 
shared stewardship of forests based on science and 
collaboration. Mutual trust must be carefully built, so large 
projects, with appropriate use of fire, can be implemented and 
monitored.
    I think you should consider emulating the framework of the 
cohesive strategy for wildland fire which brings all levels of 
government together.
    So, in conclusion, I want to reiterate, TNC welcomes the 
chance to work with the Committee to help build a Farm Bill 
that answers the needs of our forestlands and our forest 
producers, with sound policies and adequate funding.
    Thank you very much.
    [The prepared statement of Mr. Topik can be found on page 
118 in the appendix.]
    Chairman Roberts. I thank the panel. I think we have had an 
excellent panel----
    Senator Stabenow. Yes, absolutely.
    Chairman Roberts. --Senator Stabenow.
    Senator Strange, I know you have a conflict, and so I am 
going to recognize you at this point.
    Senator Strange. Well, thank you very much, Mr. Chairman, 
and thank the panelists for their excellent testimony today. It 
is very enlightening to me as a new member of the Committee 
that I am honored to serve on.
    I want to direct my questions to my friend, Dr. Saloom, if 
I may. We have been sportsmen for a long time and have hunted 
all over the--both of us have hunted all over the various parts 
of our State, and I am always impressed by the management of 
our private landowners, as they engage in their various 
voluntary practices.
    I was hoping you could describe some of these practices, 
how our private landowners utilize the USDA conservation 
programs and tools to ensure they are protecting the diversity 
of species that you and the other landowners protect and enjoy.
    Dr. Saloom. Thank you, Senator Strange, and I am very glad 
to talk about that.
    Without these Farm Bill conservation programs, the habitat 
in Alabama and most of the United States probably would not be 
as improved as it is now. There is a lot more room for 
improvement, of course.
    But from our standpoint and from the people that we know in 
a lot of these hunting areas, we are using EQIP in terms of 
managing our private forests, doing prescribed burning, 
planting longleaf, which is an ideal pine species for wildlife, 
only ideal if it is planted on the right soils and in the right 
place. Longleaf is not for everyone, to be understood.
    Of course, we are not in CRP, but there are other people 
that are in CRP. If one plants, CRP--and 30 years later, 
returns back and harvest it, then they have not really done 
anything for the value of that land and the wildlife. It needs 
to be managed, and we need to continue that type of mid-
contract management in the CRP pines. Extremely important.
    The wildlife in terms of gopher tortoise management that we 
are doing, that other people are doing in south Alabama, with 
other species that are endangered or threatened is critical in 
terms of developing good wildlife habitat within those 
woodlands, so that these species can survive.
    This carries over not only to those endangered or 
threatened species, but carries on to the other species that 
are involved. It is a symbiotic relationship with the 
ecosystem, and improving that wildlife habitat further 
increases the non-timber resources that all of society values 
and partakes of--clean air and clean water, all of those 
particular non-product values that are extremely important to 
all Americans.
    So I am hoping that is answering your questions that these 
programs are vitally important. We need to continue that, but 
we also need to make it available to those others that are not 
on those programs in terms of our neighbors doing cross-
boundary line, larger landscaped work that really makes an 
impact difference.
    Thank you.
    Senator Strange. I have one more quick question, if you 
have time, in the remaining time we have. We, of course, do not 
have the type of Forest Service management lands that other 
States have, but we do have some national forests, and I wonder 
if you might comment a little bit about the need for the Forest 
Service to be a good neighbor with our private landowners, 
which, of course, are the majority in our State.
    Dr. Saloom. That is very, very important. We all have room 
to grow and improve our lands. This includes the Forest Service 
as well, and I know listening to Chief Tidwell this morning, 
capacity is a big, big difficulty there. It is a big hurdle. 
They do not have the manpower and the women-power to do the 
work that needs to be done.
    But the other problem that we see is the regulations. Their 
work is stifled so much by the regulations that they have to 
encounter just to even do management. Just to even cut timber 
and do the right timber management, it takes a year and a half 
sometimes to sell the timber off a national forest. I am not a 
land manager in terms of Federal lands, but those are things 
that I am quite--not knowledgeable, but understand, especially 
on the Conecuh National, which is a national forest within our 
region.
    This cross-boundary that we have been talking about, 
neighbor to neighbor, and especially the Klobuchar and Daines 
legislation is very, very important, because if we can get 
landowners engaged--the private landowners on those contiguous 
acres and those border acres engaged in management, then that 
spills over to a better management throughout the entire 
region.
    The West is significantly important. That cross-boundaries 
are extremely important in terms of wildfire reduction, fuel 
reduction, and even wildlife management to have that good 
neighbor-to-neighbor work across boundaries. We need that 
leeway.
    Senator Strange. Thank you, Mr. Chairman.
    Chairman Roberts. Ms. Downey, you stress in your testimony 
the importance of voluntary nature of conservation as the 
cornerstone for success. You listed quite a few examples of 
things that you wanted to do, anyway, all commensurate with 
recommended conservation practices. Doubtlessly, your operation 
of the livestock industry faces a number of challenges on a 
number of fronts. Can you elaborate on the regulatory 
challenges facing your operation in the livestock industry? 
What regulatory uncertainty do you face as a producer as it 
relates to air quality or prescribed burns or water quality or 
endangered species?
    After you answer that, I am going to recommend that 
question for anybody else on the panel that wishes to comment, 
please.
    Ms. Downey. Certainly, Chairman.
    Smoke management is a big issue in our State, and air 
quality is a big issue, because fire is an integral part of the 
tallgrass prairie ecosystem. It is an ecosystem that developed 
in concert with fire. So we use that in the spring of the year, 
generally, as part of maintaining this prairie ecosystem. Fire 
comes with smoke, and smoke, of course, travels.
    Currently, we use our smoke management prediction tools to 
try to mitigate and, in fact, have changed plans on the fly so 
that we would not send smoke to our neighbors and cause 
exceedance events, but should it come down from the top that we 
can no longer apply this practice, at the risk of sounding 
overdramatic, that could very well spell the end of the 
tallgrass prairie. You cannot mow. You cannot spray. If you 
could come out to my ranch, you could see that fire is the way 
nature intended for this system to be preserved. We have got to 
have that.
    Chairman Roberts. Anyone else?
    Mr. Horning.
    Mr. Horning. I do prescribed burns. They are required, and 
they are very beneficial. The mid-management is really 
necessary to keep the CRP grasses going, and I love mid-
management. I just want you to change it, how I can use it more 
effectively.
    Chairman Roberts. Mr. Dees, any regulatory burdens that you 
would like to mention?
    Mr. Dees. With regard to mid-management on the permanent 
easements, WRE and its predecessor WRP, a lot of those bottom-
land forests in our region are nearing 20 years old now, and 
they really do not have as much timber value as they could to 
the landowner or as much wildlife habitat value as they could, 
because the trees are planted too densely. We need more 
flexibility in that program, similar to what is allowed as you 
did in the last Farm Bill with the CRP programs.
    Chairman Roberts. Thank you.
    Mr. Dees. Yes, sir.
    Chairman Roberts. Mr. Sharp?
    Mr. Sharp. I would comment on RCPP.
    Chairman Roberts. Hit that.
    Mr. Sharp. I am sorry. I have to hit the button there.
    I would comment particularly on RCPP and improvements in 
that regard when we are talking about some flexibility with 
program dollars as they move out into areas where there is 
RCPP-targeted programs.
    Right now, of course, only NRCS-approved projects can be 
funded. It would be interesting if we could have a small 
portion of dollars that are available for new innovative 
approaches that may be even cost savings to farmers, in 
particular, when it comes to construction; for example, manure 
storage facilities, which can be very pricey, so looking at 
maybe ways to cut cost and save the government money with some 
flexibility and some innovative approaches there. So I would 
put that out.
    But also, conservation--NRCS staff and the conservation 
experts is also something that has been a bit of a struggle for 
us too on occasion in our project with our Demonstration Farms, 
for example--Farms--and also, I hear it from a number of our 
farmers, is the technical expertise within NRCS being available 
at the right times to be able to give the input into the 
projects in a timely manner so that the projects can move 
forward in a timely manner has also been a bit of a struggle.
    So I know that NRCS does struggle with staffing, time, and 
ability, and technical expertise being targeted at the right 
time. So I would raise those couple issues of things that we 
would definitely see as opportunities for improvement.
    Chairman Roberts. Dr. Saloom.
    Dr. Saloom. Yes. Thank you.
    Prescribed fire is primo importance in the South, and it 
really should be very important in the entire United States. It 
is historically why longleaf pine has been longleaf pine and 
has survived. It is the most important tool that we have in 
terms of managing our woodlands, and some of these regulations, 
yes, they are there, but probably not as much in the South as 
it is in the West and some other areas, except if you live in 
an urban wildland interface, where smoke is a problem but can 
be mitigated.
    One of the things that I am really concerned about is this 
wildfire funding. How are we going to manage the Forest 
Service's budget and help them out so that we can mitigate 
fuels, especially in the West, so that these wildfires will 
become not wildfires, but may be able to be controlled burns 
rather than disaster fires?
    So there is a lot of insight into that that we can look at 
and talk about, and hopefully, through these Farm Bill 
programs, we can start encouraging more landowners with 
incentives to do the prescribed burning. That is one of the 
things that we are seeing on private lands. We need more 
prescribed burnings on private lands. Federal lands are doing 
pretty good, but private lands need to step it up.
    Chairman Roberts. Mr. Roady.
    Mr. Roady. We have a little different situation in our 
forests west of the Continental Divide, so to speak our fires 
are catastrophic anymore. We did a really good job being Smokey 
Bear for a lot of years, but we did not follow it up with 
active management. Now we have got forests that are so thick 
when we have a fire, you have got to get out of the way. It is 
terrible. We need to work through these problems that are 
blocking active management of our forests.
    It is scary if you are the one that is in that path of the 
fire and you see those fires coming over the hill, yeah, you 
can certainly wish you had done some prescribed burning, but we 
really need to add an active management component to it. 
Prescribed burning is one of those tools, but I can tell you 
about living with smoke and fire. It is not fun and it is not 
good. We need to manage our forests, period. It is the right 
thing to do.
    Chairman Roberts. When I was privileged to go up to 
Glacier, following the Ag Summit that we had there in Montana, 
I noted that the 2003 forest fire that occurred right across 
from the lodge at Lake McDonald, it was still gray. No green. 
That is since 2003. I would have thought there would have been 
some green showing or at least some kind of an organized 
effort.
    Then walking along the Cedar Trail--that is for couples who 
have achieved a certain level of maturity as opposed to the 
hiking I used to do there--just an awful lot of old timber, and 
I mean huge cedar trees. One stroke of lightning and I could 
see that going up. That would just be absolutely criminal.
    I want to ask you one more question before I get to another 
topic. Stay with me. What is going to happen with regards to 
the Endangered Species List and the grizzly bears now that you 
have gone from--I think they were down to about 400. Now there 
are over a thousand and posing real threats, human threats as 
well to the livestock.
    Now, I think I got this right. The stockmen would prefer 
that you would list--no--you would delist the grizzly so that 
you would have a bear hunt only to a certain point. I am not 
talking about national parks now. I am talking about where you 
live.
    Then I also heard from the folks that are in the sheep 
business that the grizzlies eat the coyotes--I hate to put that 
so brusquely, but that is what they do--and the same thing with 
wolves. So they were for continuing the number of bears to eat 
the wolves and grizzlies because they eat the sheep. This 
reminds me of Zane Grey's old books on the sheep and cattle 
wars. Where does that stand now, and how do you see that plan 
out? There is a human safety problem there.
    Mr. Roady. So they have proposed to delist the grizzly bear 
in the Yellowstone ecosystem to the south where I live. They 
have met their goals of numbers, and what I live in and work in 
is called the Northern Continental Divide ecosystem, and I am 
referring to grizzly bears. We have almost three times now the 
recovery number.
    The proposal there when you delist is you would turn it 
over to State management, and the State management allows a 
more--one, it means the Endangered Species Act worked; it was a 
success. We should be celebrating that, but we have got to 
manage it, just like our forests.
    I mean, man is here now. We need to get over that, and we 
need to manage these things to the best of our ability, and we 
learn more all the time. But the bears are just one component 
of that, and I propose, just like any other animals and any 
other wildlife, whether predators, ungulates, birds, you got to 
manage it, and we tried to do the best job we can. The same 
thing with the bears.
    I understand the ranchers and the farmers when it kills 
some of their livestock, but if we get that back under State 
management, I think--and hunting can be one of the tools. I 
think it will be very limited at the start, but also, those 
animals are smart. They learn, ``Oh, man, I better fear that 
person with a firearm.''
    I am a proponent of management, period, and I think we can 
all benefit from it.
    Chairman Roberts. Got the message.
    Dr. Topik.
    Mr. Topik. Thank you.
    To be brief, I want to make sure I associate myself with 
the remarks on fire and smoke from Ms. Downey, Dr. Saloom, and 
Mr. Roady. I strongly support those statements.
    I would like to add to the last comment Mr. Roady was 
talking about managing forests to reduce fire risk--I think it 
is absolutely essential that we realize that in most of the 
U.S., we have a lot of fire-driven ecosystems naturally, and so 
thinning alone needs to be followed up with appropriate fire, 
depending on where you are at.
    With respect to smoke, we have to learn to work together. 
We and many others are working through the Wildland Fire 
Leadership Council on smoke issues, bringing in the CDC, 
bringing in the local county and State air controllers, and 
this is an area where the agriculture industry is so vital to 
create some space in the airsheds for the kind of prescribed 
burning that we need. It is absolutely essential. I think those 
are the main things I would like to point out.
    I have been around a lot of fatal wildfires myself, seen 
thousands of houses destroyed by fires, particularly in 
Southern California. So we need to make sure we have 
appropriate techniques for the appropriate area. It is really 
different, depending on where you are.
    It is too bad Senator Boozman is not here from Arkansas. I 
would love it if the Committee could see the kind of forest 
management where they have had repeated prescribed burns going, 
like on the Ozark National Forest, those are model reference 
stand areas where you can see what it looks like, and they are 
harvesting shortleaf pine, making money on timber. The wildlife 
is so abundant, it is crazy. The wild turkeys and even elk are 
abundant there on the Ozark. It is something to see, and you 
should have Senator Boozman tell you about that, so thank you.
    Chairman Roberts. Well, I appreciate that, and I appreciate 
the emphasis on wildfires. We just lost 850,000 acres in Kansas 
with a prairie fire, the largest prairie fire in the State's 
history--maybe the United States on non-Federal land. I was out 
there the next day, stories of the 60-foot flames and 70-mile 
fire, 70-miles-per-hour winds. It is a frightening thing. It 
can turn on a dime, and we are very lucky that we did not 
lose--I think we lost one life, but that was quite an 
experience.
    Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman, and I 
think the whole question of what is happening with wildfires is 
incredibly serious. We all know that. I am also a member of the 
Energy Committee, and we were discussing this issue there as 
well as here, and frankly, after working very hard to get a 
small amount of mandatory dollars into the forestry title in 
the last Farm Bill, and to see that we cannot use it for forest 
management because we keep seeing all the dollars going over to 
fight fires, we definitely need a different way to do this.
    I have seen numbers showing that if we just took 2 or 3 
percent of the top fires and put them over in a category where 
it would be viewed from a FEMA perspective, you could solve the 
problem, and so it seems to me this is of great urgency because 
we all care about having our work on this Committee not be 
about fighting fires, but be about how we can do forest 
management and the things that involve prevention.
    In Michigan, we are eleventh in national forestland, and we 
fortunately are not on the front end of the big fires all the 
time. However, we do care deeply about this issue, and forest 
management is where we want to be. So thank you to all of you.
    I want to start, Dr. Topik, with you, because in various 
forums, we are hearing what are the strategies going forward to 
address issues that have been raised, and we have heard 
testimony in this Committee and others that Congress ought to 
establish new exclusions to environmental laws to speed up 
forest health efforts.
    I am happy to engage in a dialogue on these issues. As you 
know, we enacted exclusions in the 2014 Farm Bill for forests 
experiencing insect and disease epidemics. Based on your 
experience working for the Forest Service and working under 
both parties for the House Appropriations Committee as well as 
The Nature Conservancy, do you feel that large-scale 
categorical exclusions to environmental laws are the best way 
to spur forest health efforts, and if not, what types of 
policies would you prioritize?
    Mr. Topik. Well, thank you.
    It is a question of scale. So I would say no if it is 
really large scale.
    I and we--we do support categorical exclusions when they 
are for project activities where we have a known kind of 
activity, where we can understand what the impact is. So I am 
very anxious to see what is going to happen with the insect and 
disease categorical exclusion.
    I get fearful, frankly, of really large ones. So when you 
think about something like 30,000 acres, that is 50 percent 
larger than Lansing, Michigan, and it is almost on the order of 
size of Topeka, Kansas. It is a big area, and you do not want 
to just have people do projects without bringing in the benefit 
of local knowledge.
    So I am very much a believer that you are going to get much 
better decisions if you make it open to public participation, 
and NEPA, when it is done right, is a vital tool to get that 
done, to bring the counties in, to bring in the tribes, to 
bring the local people who are affected.
    If we go to really large CEs that are just done in the back 
room, I am really fearful that we will not have the benefit of 
the knowledge of people that are out there.
    Senator Stabenow. Could you talk a little bit more about 
why? I mean, as you are saying, collaborative decision-making 
makes better management decisions, but also is really more 
durable and less subject to litigation?
    Mr. Topik. Well, in many places. Montana has a crazy 
problem. But when we look around the country--I am fortunate. I 
have been able to go all over the country in my job for the 
last 15 years. There are an awful lot of successes that are out 
there when you see things that get done, but the buying power 
really is a serious problem on Federal forests. I mean, it is 
way, way down compared to what it used to be.
    I could tell you detailed stories, but basically, there is 
less than half the buying power than they had before, and it is 
expensive to manage forests. What buying power they have, it 
goes to fire emergencies.
    So I think we have to be honest. I think there is a lot 
that can be done to expand and share the stewardship, though, 
to bring in more companies, more administrative tools. I love 
things like Good Neighbor, where we can try to bring other 
partners to the table, so that is something we are very 
interested in. I think that is a real important area.
    Senator Stabenow. Thank you.
    Mr. Sharp, we will not talk about Ohio State versus 
Michigan or Michigan State, but we all care deeply about what 
is happening in Lake Erie and appreciate the efforts that are 
going on there. Algae blooms are incredibly serious, and when 
we saw what happened when a whole city's water system shut 
down, that proved how serious the situation was.
    So I wondered if you might speak a little bit more about 
the tools we put in the Farm Bill, particularly the Regional 
Conservation Partnership, and a little bit about how the Ohio 
Farm Bureau's involvement has been important in terms of the 
regional partnership.
    Mr. Sharp. The tools that are in the Farm Bill with 
conservation programs have been critical in this area for 
several reasons. One, it has given a lot of different 
opportunities for farmers to engage in the issue, and I think 
that has been absolutely key--a lot of different tools, a lot 
of different ways to approach this, this challenge.
    We did--as you mentioned, had water shut off in the City of 
Toledo for about a half million people for 3 days. I remember 
exactly where I was sitting when the phone rang Saturday 
morning, and the question was, ``Hey, Agriculture, what are you 
going to do about this problem?'' Those were the questions we 
were getting from the media from across the country: What is 
happening, and what are you going to do to work on this? 
Voluntary conservation programs have been an absolute key 
cornerstone of what we have been able to do.
    Now, a couple of the examples, with RCPP, the flexibility 
within that program, the ability to deliver programs for 
farmers has been critical. It also has allowed us to do things 
like edge-of-field research.
    So, for example, we have over 40 monitoring stations on 
farmers' fields across the Western Lake Erie Basin. These 
monitor both surface and subsurface runoff of nutrients and 
collecting some of the best data that we have in the country on 
what actually happens when you apply fertilizers to fields, 
both commercial and manure, commercial fertilizers and manure, 
and then what happens when you change the practices. So when 
you are modifying your practices to deal with these challenges, 
what are the results? So we are getting real results, and some 
of those are not easy results that we are going to have to deal 
with.
    For example, for many years, we have talked about--and NRCS 
has talked about--in conservation, we have talked about no till 
being no till being very valuable in keeping soil in place. It 
absolutely is. There is no question. It still will continue to 
be a valuable process that farmers use.
    But at the same time, what the data is also showing us is 
incorporating both commercial fertilizers or manures in the 
soil gives you added benefit. Well, how do you incorporate 
without tearing up the ground? It is a huge challenge. Right? 
But there is new equipment that is coming online that is being 
developed by companies to be able to do this very thing, but it 
is not cheap.
    So one of the things that we do like to talk about as well 
is that one of our farmers in our Demonstration Farm project, 
for example, has invested $250,000 in new equipment to 
incorporate fertilizer below the soil surface, but also not 
disturb the ground beyond what he wishes to do to maintain some 
of the benefits that he gets by keeping nutrients in place 
through less till or reduced till practices.
    So these are challenges that we are learning about. We are 
able to study these, engage farmers in new practices, such as 
cover crops and other things happening in the Western Lake Erie 
Basin to find solutions, and it is exciting right now, because 
when you talk with farmers in the western part of our State, 
across our State, but in the northwestern part of our State--
and I know also in Indiana and Michigan--you cannot get a group 
of them together without having an extended conversation about 
cover crops, what is working, and how are you applying 
fertilizers and manures and also incorporating those, and at 
the same time, what rotations are working for you in your cover 
crops in your systems, what equipment is needed, what is the 
cost, what is the best mix of those cover crops, so a lot of 
innovation happening because of what has been going on with 
voluntary conservation practices supported by the Farm Bills.
    Thank you.
    Senator Stabenow. Thank you so much.
    Chairman Roberts. We have a 15-minute vote that just 
started.
    Coop, you know more than anybody about High Noon, so you 
are recognized with the knowledge that we have a vote that has 
been called. The same for Senator Daines.
    Senator Thune. Thank you, Mr. Chairman, and you always 
manage to recognize me right at High Noon.
    Senator Stabenow. Right.
    Senator Thune. So I most appreciate it.
    First of all, I just want to make an observation, and that 
is many of you have commented about the need for some sort of 
midterm or other management on permanent easements, and I would 
like to add that I have offered a conservation title 
improvement bill, Senate Bill 909, that offers just such 
options for these long-term easement programs, which I hope 
ultimately will be included in the Farm Bill.
    Mr. Horning, based on your testimony, I assume that you 
support my proposal for the next Farm Bill to allow all CRP 
acres to be hayed at the rate of one-third of each CRP contract 
each year?
    Mr. Horning. I certainly do, Senator.
    When I started getting into CRP, I was not doing a very 
good job with mid-management, and the wildlife numbers would 
just drop dramatically. It would go about 3 or 4 years, and all 
of a sudden, the wildlife--pheasants, deer--would move to other 
parts, other CRP practices. Mid-management is mandatory. We 
have got to do a little better job on that.
    They started policing my CRP, which really helped out. Then 
I started doing a better job of mid-management.
    Senator Thune. Okay. Do you believe that this can be 
accomplished without any detrimental effect on wildlife and 
wildlife habitat?
    Mr. Horning. You can make it work. In years like this, it 
is really tough. You are going to probably have to give and 
take a little bit.
    Senator Thune. Right.
    Mr. Horning. In normal years, you can make that mid-
management work and not suffer wildlife.
    Senator Thune. I have also got a proposal out there. I am 
interested in your thoughts about a proposal that would grade 
CRP even during the primary nesting period at a 25 percent 
level of normal stock rates.
    Mr. Horning. Yes. What I would rather do instead of coming 
through and haying the whole contract, 100 percent of the 
contract, I would rather do one-third, one-third, one-third, or 
go one-fifth every year. I can provide good feed for my farmer 
neighbors. They always need hay.
    Senator Thune. It seems like that, yeah.
    Mr. Horning. Even in good years, they are still demanding 
the hay, and I will have a lot better job for wildlife if I 
just go a third of my contract or a fifth of my contract each 
year, whichever you decide.
    Senator Thune. What do you suggest the CRP acreage cap 
ought to be in the next Farm Bill?
    Mr. Horning. Forty million. Okay.
    Senator Thune. I have one other idea out there, and I would 
like to get your reaction to it. You mentioned in your written 
testimony that you supported--I have got this proposed idea to 
offer a 3-to-5-year conserving use program, the Soil Health and 
Income Protection Program, and the question is, Do you 
anticipate that this short-term conserving use program is a 
desirable option and complement to CRP for landowners and 
farmers who do not want to take their land out of production 
for 10 to 15 years?
    Mr. Horning. I am a CPA in public practice. I do a lot of 
farm tax returns. Okay? I know a lot of farmers. They are gun-
shy to go 10 or 15 years.
    I love the 3-or 5-year option and the flexibility or the 
different type of habitat we are going to add for wildlife. 
Does that make sense what I am saying?
    Senator Thune. Yeah. No, it does. Yeah.
    So just--do you think we ought to incorporate some sort of 
targeting or allocation method on a State-by-State or regional 
basis to ensure that we do not have CRP leave States like South 
Dakota that had depended so heavily on CRP's benefits? You know 
what I am saying?
    Because like you suggested the last sign-up, we got two in 
South Dakota.
    Mr. Horning. Right. Yeah.
    Senator Thune. On 100 acres.
    Mr. Horning. Yeah.
    Senator Thune. We are down now to less than a third of what 
we were at one point in terms of acres. So should there be some 
sort of allocation method that recognizes that there are States 
like ours that heavily depend on it and need it?
    Mr. Horning. Yes, there should be. In the past, South 
Dakota used to get some priority, priority points, EBI scores.
    Senator Thune. Right.
    Mr. Horning. This last sign-up, the 49, they did not 
recognize the EBI points. I followed the 39th sign-up to the 
45th on the general sign-ups, and I had a little formula, how I 
did my EBIs. I never anticipated going 0 for 6 on my 
application.
    Senator Thune. Yeah. I am sure you did not, and neither did 
we.
    Senator Daines wants to ask questions, and we have got a 
vote on. I would be interested in any recommendations you all 
have for your highest priorities for this Committee when we 
write the next Farm Bill's conservation title.
    But thank you all for being here and for offering your 
thoughts and input. This is very valuable to us as we start to 
shape that next bill.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman. I heard you 
mentioned the potential delisting of the grizzly bear in the 
Greater Yellowstone ecosystem. I can tell you that the people 
of Montana can manage grizzly bear populations. We had this 
same debate with the wolves years ago. I have my own wolf tag 
here; I pulled out of my wallet. We managed wolves much better 
than the Federal Government ever could, and the people of 
Montana are ready, able, and capable of managing the grizzly 
population. It is a tremendous success story. The grizzlies are 
at a record-level population. This is what the Endangered 
Species Act is supposed to do. You recover the species, and 
they delist the species. So we should celebrate the delisting 
and transfer that to the States.
    Chuck Roady, thanks for coming to this Committee. I am 
always happy to introduce a fellow Montanan. Thank God for some 
common sense back in Washington, DC. We need you here.
    In your testimony, you mentioned the collaborative work you 
and others in the wood product industry have put forth. You are 
an example of someone who leads the collaborative efforts. You 
have built strong relationships with the Whitefish Range 
Partnership, the Kootenai stakeholders, the Montana Forest 
Restoration Committee, the Montana Forest Collaborative Network 
as well.
    You also mentioned several of the projects that these 
diverse groups supported that then were ultimately litigated 
and held up in court.
    Chuck, in the context of supporting the collaborative 
process and empowering the agency to implement these 
restoration projects, do you believe it is important that we 
protect collaborative projects from litigation and excessive 
regulation and find ways to empower their involvement?
    Mr. Roady. Absolutely. Nothing is more frustrating than 
sitting in a Grange Hall or a school gym or any place that we 
have met, the county commissioners and with all your partners--
and you went down the list, Chris, of--and then you get blown 
out of the water after you finally agree on something--and of 
the people that did not come to the table and did not 
participate.
    So I do not want to exclude anybody out of this public 
comment, but we have been down that road, and it does not work. 
We need some deference to the collaborative. So if you have 
collaborated--and 95 percent of the people who have been at 
that table, there is some deference--and to get around the 
litigation. I mean, absolutely. We have tried the other part, 
and I do not want to leave anybody out of the public comment, 
but it is the people that do not come to the table that stop 
the project.
    Senator Daines. Chuck, you have testified many times here 
in Washington, DC Here is a chance to express to the Ag 
Committee--Agriculture, Nutrition, and Forestry Committee--the 
answer to this question, and it is this: What in your view are 
the top reforms that Congress should pass that would have the 
most impact on restoring active management in our national 
forests?
    Mr. Roady. We could start by one you helped sponsor, is to 
reverse the Cottonwood decision. The implications of that 
decision, people have no idea.
    Senator Daines. Incidentally, the Obama administration 
supported that.
    Mr. Roady. Yes. I mean, it is----
    Senator Daines. We have got--Senator Tester and I--Tester 
is with me on that, so we have got bipartisan support. Obama 
administration supported that, just for what it is worth.
    Mr. Roady. The first thing we could do that would help the 
most is to reverse that.
    Senator Daines. Yep.
    Mr. Roady. Secondly is something on the litigation, and I 
am willing to try deference to collaboratives, some 
arbitration, anything that would help us. I mean, when our 
current system pays people taxpayer money to sue the taxpayer 
to stop a project that does not move our society forward, 
something is not right, and we have got to change that. I see 
it and live it every day. I want my kids and grandkids to have 
the same opportunities that I have had to enjoy those forests, 
and if we do not do something, a lot of those opportunities are 
going to be gone.
    I went out on a tangent there, but I mean that.
    Senator Daines. Yeah. You talk about health threats and our 
watersheds. We have got municipalities right now that need to 
do timber projects here to reduce the threat of wildfires and 
do some thinning, and we are getting hung up in court, what 
threatens the watersheds with the environmental disasters we 
have from a wildfire, as we breathe the smoke. As we know as 
Montanans, every August and September, just get ready. It will 
be coming again.
    Last question. You have been involved with other diverse 
partners to secure working landscapes on forestlands in 
northwest Montana through conservation programs administered by 
Department of Ag. Briefly mention for me, if you would, your 
experience with the Forest Legacy Program, and how has that 
impacted Stoltze?
    Mr. Roady. Forest Legacy Program is a win-win. It is a 
program that my individual company has participated in, and it 
keeps the private forest in private. We still pay the taxes, 
but we have agreed that we will help protect. We own a 
municipal watershed. We own the city watershed of Whitefish, 
Montana, and then we use the Forest Legacy Program to help do 
that and put it in writing. That was a handshake deal for 100-
plus years. But it also creates public access. So those people 
in the public now can fish and hunt in perpetuity on our land, 
and that was through the Forest Legacy Program. I cannot stress 
enough, if we had more programs like that, it would be a big 
help.
    Senator Daines. Well, thank you.
    I am out of time, and I just remind the Committee here, 
Chuck is also a conservationist leader with the Rocky Mount Elk 
Foundation for years, and this is the marriage of forest 
management and wildlife conservation, go hand and hand, and I 
say that as a fellow elk hunter.
    Thanks, Chuck.
    Chairman Roberts. Thank you, Senator.
    Thank you to all of our witnesses on both panels for taking 
time to share your views about the future and the direction of 
conservation and forestry programs. The testimonies provided 
today are extremely valuable for the Committee to hear 
firsthand.
    For those in the audience, if you are still hanging with 
us, if you want to provide additional thoughts on the Farm 
Bill, we have set up an email address on the Senate Ag 
Committee's website to collect your input, fair and balanced. 
Please go to ag.senate.gov, and click on the Farm Bill Hearing 
box on the left-hand side of your screen. That link will be 
open for 5 business days following today's hearing, and for 
members, we would ask that any additional questions you may 
have for the record be submitted to the Committee Clerk, 5 
business days from today or by 5:00 p.m. next Friday. That is 
July 7.
    The Committee stands adjourned. Thank you all.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             JUNE 29, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JUNE 29, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                             JUNE 29, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
